<html>
<title> - NOMINATION OF HON. THOMAS C. DORR, TO BE UNDER SECRETARY OF AGRICULTURE FOR RURAL DEVELOPMENT AND TO A MEMBER OF THE BOARD OF DIRECTORS OF THE COMMODITY CREDIT CORPORATION</title>
<body><pre>[Senate Hearing 109-274]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-274
 
NOMINATION OF HON. THOMAS C. DORR, TO BE UNDER SECRETARY OF AGRICULTURE 
                 FOR RURAL DEVELOPMENT AND TO A MEMBER
                    OF THE BOARD OF DIRECTORS OF THE
                      COMMODITY CREDIT CORPORATION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                               __________

                             APRIL 27, 2005

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-839                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Steven Meeks, Majority Legislative Director

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Hon. Thomas C. Dorr to be Under Secretary of 
  Agriculture for Rural Development and to be a Mmember of the 
  Board of Directors of the Commodity Credit Corporation.........    01

                              ----------                              

                       Wednesday, April 27, 2005
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    02

                               WITNESSES

Dorr, Hon. Thomas C., of Iowa, to be Under Secretary of 
  Agriculture for Rural Development, and to be a member of the 
  Board of Directors of The Commodity Credit Corporation.........    08
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.    04
                              ----------                              

                                APPENDIX

Prepared Statements:
    Coleman, Hon. Norm...........................................    40
    Farm Payment Scenario Table..................................   207
    Forms (CCC-477) of Mr. Dorr..................................   196
    FSA Statistics...............................................   194
    Letter from Steven Phillips and James Little.................   325
    Letters submitted by Senator Harkin..........................   261
    Letters of Support for Mr. Dorr.............................. 49-50
    Letters submitted by the Congressional Black and Hispanic 
      Caucuses................................................... 41-47
    Neil Harl, Charles F. Curtiss Distinguished Professor........   204
    OIG Report...................................................   303
    Recorded Transcript of Mr. Dorr..............................   201
Document(s) Submitted for the Record:
    Cochran, Hon. Thad...........................................   272
    Dorr, Hon. Thomas (Biographical Information)(Dorr Nomination 
      Hearing, March 6, 2002, can be viewed in the committee 
      file)......................................................   282
    Support and Opposition Letters..............................324-357
    Talent, Hon. James...........................................   274
Questions and Answers Submitted for the Record:
    Harkin, Hon. Tom.............................................   360
    Coleman, Hon. Norm...........................................   366



NOMINATION OF HON. THOMAS C. DORR TO BE UNDER SECRETARY OF AGRICULTURE 
 FOR RURAL DEVELOPMENT AND TO BE A MEMBER OF THE BOARD OF DIRECTORS OF 
                    THE COMMODITY CREDIT CORPORATION

                              ----------                              


                       WEDNESDAY, APRIL 27, 2005,

                                      U.S. Senate,,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:37 a.m., in 
room 328A, Russell Senate Office Building, Hon. Saxby 
Chambliss, [Chairman of the Committee], presiding.
    Present or submitting a statement: Senators Chambliss, 
Coleman, Crapo, Grassley, Harkin, Nelson and Salazar.

STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. The committee will come to order and we are 
pleased to be here this morning to welcome the President's 
choice for Under Secretary of Agriculture for Rural 
Development, Mr. Thomas Dorr of Iowa.
    Mr. Dorr, welcome to the committee this morning.
    This will be the second hearing for Mr. Dorr. The first 
hearing occurred on March 6, 2002, and everybody should have a 
copy of the transcript of that hearing before them, as well as 
the subsequent questions proposed by members of the committee 
and the answers thereto.
    I believe Mr. Dorr is well-qualified for the position that 
he is being nominated for by the President. The rural 
development mission for the Department of Agriculture is 
extremely important. My colleagues and I have highlighted the 
need to provide new economic opportunities for farmers and 
ranchers across the United States. Rural America has been at a 
crossroads for some time. The old ways of doing business in 
farm country are not quite applicable to the information age 
and modern agricultural markets.
    Having practiced law in South Georgia for over 26 years, I 
am intimately familiar with the challenges facing farmers and 
ranchers every day. We need leadership at the Department that 
can bring real-world experience to Government programs. Mr. 
Dorr is a powerful thinker and he has already demonstrated his 
ability to bring sound and well-established business principles 
to USDA.
    Mr. Dorr, I believe you have been at USDA now for the last 
30 months, both as a recess appointee and most recently as an 
adviser to the Secretary.
    The position of Under Secretary of Agriculture for Rural 
Development has been vacant for some time. It is simply 
unacceptable in my view to let such a critical mission area 
remain open while Congress and this committee spend time on 
past issues that will have little or no relevance to the duties 
of the position. In the meantime, housing, business, 
telecommunications and utilities programs are without 
consistent and determined leadership.
    I believe the President has made a fine choice in Mr. Dorr. 
This committee has already held an exhaustive hearing in March 
of 2002, and the witness has spent more than 4 hours testifying 
and additional hours answering written questions. We know more 
about Thomas Dorr now than probably any nominee that has come 
before this committee. I believe we should move forward and 
confirm Mr. Dorr.
    Since working at the Department Mr. Dorr has been a leader 
at rural development and an important adviser to Secretaries 
Veneman and Johanns. In his time at USDA Mr. Dorr has focused 
on outcomes rather than outputs, improved outreach and employee 
customer service, and enhanced the business practices of the 
cooperative programs. Mr. Dorr understands the needs of rural 
America because he is from rural America.
    We must complete this process expeditiously. Senators must 
and should be heard regarding their concerns, and substantive 
information should be brought before the committee for 
consideration.
    I look forward to the proceedings and will look upon any 
new information with interest.
    Having said that, I also believe that the job Mr. Dorr has 
done at the Department since being nominated by the President 4 
years ago is certainly more important than events from 10 years 
ago that have been thoroughly investigated, not only by this 
committee but by the USDA Inspector General.
    Mr. Dorr, welcome again to the committee. We look forward 
to your testimony.
    I would now like to ask my good friend, the distinguished 
ranking Democratic member of the committee, Senator Harkin, if 
he has any opening remarks?

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM THE STATE OF 
IOWA, RANKING MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Senator Harkin. Thank you very much, Mr. Chairman. I want 
to thank you for holding this hearing today, and thank you for 
the courtesies that you have shown not only to me but to our 
side of the aisle.
    This hearing fulfills our committee responsibility to 
review nominees carefully. It is no secret that I have major 
concerns about this nominee, and I intend to inquire into these 
matters at this hearing. You are correct, we had an extensive 
hearing record in March of 2002. However, there had been 
subsequent letters and findings and things that have not been 
put in the record which I will put in the record during this 
hearing today.
    Mr. Chairman, I regret very much that so many problems have 
arisen regarding the nomination of a fellow Iowan. This is not 
a joyful thing for me to do, especially when it is a fellow 
Iowan and especially when I know that my colleague, Senator 
Grassley, is a strong supporter of this nominee, and I assume a 
friend of this nominee, and Senator Grassley knows I have the 
highest esteem and friendship toward him, and so this is not 
something that I take any joy in doing. However, I feel that we 
do have a responsibility to inquire into some of these matters, 
and I will explain that further as we go along. Just as it 
would be for anyone, it is a matter of real pride for me when 
anyone from my State has been nominated to a high position in 
our Federal Government. Regardless of party, in the 20 years 
that I have been in the Senate I have never opposed an Iowan 
who has been nominated to serve in any administration here in 
Washington. This is the first one.
    The Under Secretary for Rural Development is critically 
important, as you said, Mr. Chairman, to family size farms and 
ranches and to smaller communities all across America. The 
responsibilities include helping build water and wastewater 
facilities, financing decent affordable housing--I will repeat 
that--financing decent affordable housing, supporting electric 
power and rural businesses such as cooperatives. They also 
include promoting community development, helping to boost 
economic growth and create jobs and improve the quality of life 
in rural America.
    Therefore, I am concerned about Mr. Dorr's comments 
regarding his vision of agriculture with 225,000-acre mega-
farms consisting of three computer-linked pods, or criticizing 
the failure of Iowa to move aggressively toward very large, 
vertically integrated hog production facilities. These are on 
the record and we will get into those also.
    Mr. Dorr made questionable comments about ethnic diversity 
that have yet to be fully explained. The person in the position 
of Under Secretary for Rural Development must also be 
responsive and sensitive to the demands of serving America's 
very diverse rural citizens and communities. That requirement 
for the job cannot be over-emphasized in a department that has 
been plagued with civil rights abuses of both employees and 
clients. I am troubled that the nominee misrepresented the 
farming relationship between Dorr's Pine Grove Farm Company and 
two family trusts, and that, at least to this Senator's 
observation, he has been unwilling to fully explain this 
complicated farming arrangement.
    As Secretary Veneman wrote to me in 2002, quote, ``Any 
person who serves this Nation should live by the highest of 
standards,'' end quote. That is why I am concerned about Mr. 
Dorr's financial dealings with USDA.
    I guess bottom line my concern is that what kind of signal 
does this send to farmers and ranchers, people in rural America 
who may partake of the many varied programs that the Department 
of Agriculture has, whether it is deficiency payment programs 
or any of the myriad of rural development programs? What does 
it say to them if someone misrepresented their farming 
operation in order to avoid payment limitations? What does it 
say to them if this person is then elevated to one of the 
highest positions in our Department of Agriculture, someone 
whose family had to pay back almost $34,000 in deficiency 
payments? As I said, basically, I guess that is my bottom line 
concern, what signal does that send?
    As I said earlier, I intend to inquire into those areas 
that have concerned me. Perhaps today Mr. Dorr will be able to 
enlighten me and the rest of the committee about his vision, 
his tolerance and his integrity.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Harkin.
    Now I will turn to Senator Grassley for an introduction of 
Mr. Dorr.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. I had the privilege of introducing Tom, 
and I am very glad to do that, and particularly want to thank 
him for his willingness to serve the people of this country 
again, particularly considering the controversy that evolved 
during his first nomination.
    Thank you, Tom, for your continued willingness to do good 
for our country.
    Tom is a fourth generation dirt-under-the-fingernails 
family farmer. He has also been a small businessman and 
understands the demands and challenges of doing business in 
rural America. He has been a community leader, as evidenced by 
being chairman of the board of the Heartland Care Center, a 
cooperative care center there in Marcus. Tom was instrumental 
in starting the Iowa Corn Grower's Association, moving to 
leadership roles in the National Corn Grower's Association. Tom 
served on the board of the Chicago Federal Reserve, and has 
also served on the board governing our three State 
universities, the Board of Regents of the State of Iowa, one of 
the most prestigious jobs in our State and one where Senator 
Harkin's wife has now been appointed to a very hard job to do, 
very little reward for it, but a great opportunity to make a 
difference to the people of our State.
    I also want to thank Tom for his deference to me on our 
disagreement in this nomination and the respectful way in which 
he has responded to our differences, or at least not make a big 
deal out of our differences. Thank you, Tom.
    Now, Tom Dorr's leadership ability has been demonstrated 
and utilized to the benefit of his community and our State time 
and time again. A family man, married to Ann for 35 years, son 
and married daughter and granddaughter living in Iowa. He has 
the same desire we do as Senators, to improve the economy of 
rural America so his family can have all the benefits of the 
quality of life that rural America brings.
    Tom has the financial expertise and business savvy required 
to run an organization as large as the complicated USDA Rural 
Development. This agency is basically a large bank, after all, 
with loan portfolio of $90 billion. That is as big as Wells 
Fargo, Chase Manhattan and bigger than most banks in America. 
This agency has 7,000 employees located in 800 offices. Not 
just any person can move from the farm to take over an 
organization of this size, but Tom Dorr did run this 
organization for 6 months, from August 2002 until December 
2003. From the stack of letters that I have received, he did it 
very well. He did it so well that Secretary Veneman retained 
him as Senior Adviser when his recess term expired, and 
assigned him additional duties in other areas.
    Because of his recess appointment we have a unique 
opportunity to examine his track record. He served 15 months 
Under Secretary of Rural Development. I have heard from many 
people at USDA about his accomplishments. This was not only 
Secretary Veneman, but also career staff and groups who 
originally had concerns. They talk about his leadership, his 
vision, his intellect, and most importantly, his commitment to 
rural America. When I hear of the comments like this from peers 
and those who work for him, we should all take particular note.
    Let me describe a few of the results that have been brought 
to my attention.
    No. 1. He expedited the release of 762 million of water and 
wastewater infrastructure funds provided in the 2002 Farm bill, 
and he did that in just 3 months.
    No. 2. He led the effort to complete the rulemaking process 
and order $1-1/2 billion of broadband program could begin 
taking applications this year. He believes that if Americans 
are to live locally and compete globally, that it is imperative 
to wire the country for technology access as it was to 
electrify it 60 years ago.
    No. 3. In order to facilitate, review an announcement of 
$37 million of value-added development grants, he is using 
private sector resources to expedite the process.
    Four. In order to deliver financial grants authorized by 
the Delta Regional Authority, he helped develop and get signed 
a memorandum of understanding between Rural Development and 
Delta Regional Authority. This will Rural Development to assist 
in delivering joint projects at no added cost to Delta 
Regional.
    Five. He facilitated the developments of a memorandum of 
understanding signed by Secretary Veneman and Secretary 
Martinez, between Department of Agriculture and HUD, that 
focused on better serving housing and infrastructure needs.
    Six. He has developed a series of initiatives with HUD that 
will allow Rural Development to more cost effectively meet the 
housing needs of rural America. These will allow the Department 
to provide greater access to housing for all rural America, but 
especially minority rural Americans in the fulfillment of the 
President's housing initiative.
    He has initiated a review of multi-family housing programs. 
This has included the hiring of an outside contractor to 
conduct comprehensive property assessments to evaluate the 
physical condition marketing positions and operational status 
of more than 17,000 properties USDA has financed, while 
determining how best to meet the needs of low-income citizens 
in rural America.
    He has initiated a major outreach program to ensure USDA 
Rural Development programs are more easily made available to 
all qualified individuals, communities and codified 
organizations. This marketing and branding initiative has also 
played an important role in changing the attitude of employees 
to concentrate on customer service and proactive outreach with 
emphasis upon reaching out to minorities.
    Although this is an incomplete list of accomplishments, it 
is easy to set that Mr. Dorr did a great job in the short 15 
months he served Rural Development. Clearly on paper Tom did a 
great job.
    Let me read a few comments from folks who worked with Tom. 
First, Mortgage Bankers Association. Quote, ``We support Mr. 
Dorr's nomination as Under Secretary of Rural Development 
because we have found him to be an engaged leader with true 
commitment to housing and community development needs in rural 
America.'' This organization certainly is able to recognize if 
anyone has the ability to understand the financial issues and 
have the skill needed to run this agency.
    The next quote is from the Council of Affordable Rural 
Housing. Quote, ``On behalf of our members throughout the 
country we're writing you today in support of the nomination of 
Thomas C. Dorr to be Under Secretary. There is a need for 
strong leadership and determination to forge long-term 
solutions preserving this important investment in rural 
America.'' That is Robert Rice, Council of Affordable Rural 
Housing.
    I have many more letters, probably 50 or more from 
organizations all across the country asking us to confirm Mr. 
Dorr. In addition, I have a letter signed by many of the 
leading national agricultural organizations such as the Corn 
Growers and American Farm Bureau.
    There is another issue that I feel compelled to address, 
and this is during the 2002 hearing and in the floor debate in 
the Senate. Concerns were expressed regarding Tom's position on 
minority issues. I would like to reference letters for the 
record this morning that would alleviate lingering concerns. I 
have several letters from minority organization leaders 
expressing their support for Tom Dorr's confirmation.
    The first letter is from the Federation of Southern 
Cooperatives, and you would recall that they had a 
representative testify against Mr. Dorr in the 2002 hearing. 
Quote, ``I am personally endorsing Tom Dorr's nomination 
because of his deep interest in rural development. He has made 
several visits to the communities when in the Federation's 
network, and has a great understanding of the needs of rural 
poor communities. He is a man for the job.'' Ralph Paige, 
Executive Director.
    Another letter to quote from, this is from the Northeast 
Louisiana Black Farmers and Landowners Association, Dexter 
Davis, President. ``Mr. Dorr has made great accomplishments in 
the position and has earned the trust from rural Americans to 
carry out his mission.''
    From Calvin King, President and CEO of Arkansas Land and 
Farm Development Corporation, quote, ``I met Tom Dorr in 
Washington, DC when he was serving as the Acting Under 
Secretary and was impressed with his patience for small 
farmers. Quite frankly, when I first met Tom I was not 
expecting him to be particularly supportive of our needs, but 
over the years we have worked together, have found him to be a 
great ally and tireless fighter for the causes that we both 
support.''
    From Fernando Burkette, Black Farmers and Agricultural 
Association, Arkansas Chapter. Quote, ``We hold Mr. Dorr as a 
valuable asset to our organization and his future. He is one of 
the individuals who has played a major role in bridging the gap 
between the small limited resource and minority producers for 
our organization and the USDA.''
    I have many more others that I could read, but you get the 
point. Thankfully, these organizations were very concerned to 
come forward after they had a chance to get to know and work 
with Tom.
    With your indulgence, Mr. Chairman, I want to also read 
portions of a letter to Mr. Dorr by Dr. Dennis Keeney, former 
head of the Leopold Center at Iowa State University. Many of 
you will recall that Dr. Keeney was asked to testify against 
Mr. Dorr in 2002. Quote: ``I write to apologize for appearing 
at your hearing in 2002. It was something I should have said no 
to right off, but did not. Then it drug on and I had to go 
through with the appearance or lose face. That still did not 
make it right. It was during the reading of this book, The 
Natural Misunderstood Presidency of Bill Clinton, that I 
realized that I had become part of a mud-slinging character 
assassination. This is not the type of legacy that I would like 
to leave. You have been misunderstood and made a poster child 
for big agriculture. I am sure that that has not particularly 
bothered you, but I have not been proud of my little part in 
painting that picture.'' Dr. Dennis Keeney, Emeritus Professor, 
Iowa State. I thank Dr. Keeney for sharing his letter.
    In closing, Mr. Chairman, I want to ask that this committee 
set aside the politics of the past and concentrate on the real 
issues affecting rural America and that Tom Dorr would be 
confirmed for this important job. We have neglected our duty of 
going 4 years without having a confirmed Under Secretary. To 
think that while all this debate was going on in the Senate we 
have had four different individuals serving in the Under 
Secretary position. None of them were confirmed by the Senate. 
This is not a good way to run a business or a large complicated 
agency as important to the States as the U.S. Department of 
Rural Development.
    Tom has been under the microscope since his original 
nomination, and everyone who has looked in the lens has offered 
praise for his work and accomplishments. Thankfully, we do not 
need to speculate about whether Tom would do a good job or not. 
Tom has already demonstrated how he can do it and what he has 
done, and will likely continue to do the same great job as a 
confirmed Under Secretary. How often do we actually get to 
judge a nominee by their proficiency in the job? Tom is a sure 
thing. Rural America is regaining its economic, social and 
cultural momentum. It would be a shame to deprive it of the 
leadership that he can give at this critical juncture.
    We have a unique second chance here today, Mr. Chairman. I 
hope that we will set aside our differences, do what is best 
for our rural citizens, our State and our country. it is an 
honor for me to introduce Mr. Dorr to you as the new chairman 
of the committee, Senator Chambliss.
    The Chairman. Thank you, Senator Grassley.
    Mr. Dorr, it goes without saying that to be introduced by 
one of the more respected members not just of this committee 
but of the U.S. Senate says an awful lot about you and your 
appointment to this position.
    Let me say, before we turn to Mr. Dorr, that we have 
received a letter dated April 26, 2005, and let me just read 
this letter. It says, ``As Members of the Congressional Black 
Caucus and Congressional Hispanic Caucus, we write with concern 
to the nomination of Mr. Thomas Dorr for Under Secretary of 
Agriculture for Rural Development. Attached please find copies 
of letters sent last year by members of each caucus. The 
concerns raised in these letters are yet to be adequately 
addressed. We ask that these issues be raised and probed prior 
to confirmation of Mr. Dorr.''
    We are going to put this letter with the attached letters 
in the record unless there is objection. Hearing none, they 
will be so put in the record.
    [The letters sent last year by members of the Congressional 
Black and Congressional Hispanic Caucus can be found in the 
appendix on page 41.]
    The Chairman. In addition we have received letters from 85 
organizations, farm organizations around the country and 14 
individuals supporting the nomination of Mr. Dorr. Likewise, we 
will put this list of the 85 organizations along with their 
letters, and the 14 letters from individuals supporting Mr. 
Dorr in the record unless there is objection. Hearing none, 
they will be so put in the record.
    [The letters from 85 organizations and 14 individuals 
supporting Mr. Dorr can be found in the appendix on page 49.]
    The Chairman. Mr. Dorr, would you please stand and raise 
your right hand? Do you swear that the testimony you are about 
to present is the truth, the whole truth and nothing but the 
truth, so help you God?
    Mr. Dorr. I do.
    The Chairman. Thank you. Let me ask you the mandatory 
question before we turn to you for your testimony. Do you agree 
that if confirmed you will appear before any duly constituted 
committee of Congress if asked?
    Mr. Dorr. Yes, I will.
    The Chairman. Mr. Dorr, thank you very much again for being 
here today. We look forward to your testimony and you may 
proceed.

    STATEMENT OF HON. THOMAS C. DORR, OF IOWA, TO BE UNDER 
  SECRETARY OF AGRICULTURE FOR RURAL DEVELOPMENT AND TO BE A 
   MEMBER OF THE BOARD OF DIRECTORS OF THE COMMODITY CREDIT 
                          CORPORATION

    Mr. Dorr. Thank you, Mr. Chairman. Chairman Chambliss, 
Senator Harkin, members of the committee, I thank you for this 
opportunity to again come before you. Senator Grassley, I am 
most appreciative of your kind and gracious introduction. I am 
deeply honored by the nomination of the President to serve as 
the Under Secretary for Rural Development.
    I have tremendous respect for the mission of Rural 
Development and deep admiration for its employees. It is with a 
great deal of humility that I appear before you today in this 
confirmation process. I would like to take just a brief moment 
to introduce my wife of nearly 34 years, Ann, right behind me. 
Our daughter Allison Kleis, her husband Karlton, our 
granddaughter Emerson, as well as our son Andrew, all of Des 
Moines, were unable to be with us. My father is deceased and 
although my 83-year-old mother Margaret Dorr would like to have 
been here, her health precludes that. However, my parents, my 
wife, and children's guidance, support and love has truly been 
instrumental in my desire to both continue to serve rural 
America and to be with you here today.
    Since May of 2001, I have been honored to serve as a 
consultant and Senior Advisor to Secretary Veneman and now 
Secretary Johanns. President Bush appointed me to serve as 
Under Secretary for Rural Development from August of 2002 
through early December of 2003, and I deeply appreciate this 
decision to nominate me once again for this important position. 
I take the confidence that he has shown in me with the utmost 
seriousness. Prior to serving at the Department of Agriculture 
I was a full-time farmer and businessman from Marcus, located 
in Northwest Iowa.
    My great-grandfather, a German immigrant, was the first 
homesteader in Amherst Township in Cherokee County. A single 
large tree marks the spot near the creek where he built his 
first sod home. When I visit that tree I am continually 
reminded of how much agriculture has changed. Farming is the 
first and noblest of professions, but it is one that is 
constantly changing. You are constantly reminded that many 
forces in farming are outside of your control and this 
uncertainty has made it necessary for farmers to develop 
relationships with their families and neighbors in order to 
weather these many challenges.
    My father was an early innovator who tried to find new ways 
to manage risk through diversification. He was interested in 
value-added concepts before they were described as such. He and 
my uncle owned and operated grain elevators and feed mills. 
They also had hatcheries, grow-out facilities, and even a 
poultry processing plant that allowed them to slaughter and 
ship frozen turkeys throughout the country. Yet, because of the 
ever-changing economic landscape, in many cases they were 
forced to liquidate these businesses during the 1950's and the 
early 1960's.
    I am the eldest son in a family of 9 children. My father 
and I were especially close, so upon my return to the farm in 
1971, my dad and my uncle entrusted me to oversee the farming 
operation. They placed some of their land in trusts in order to 
provide for both my mother and aunt, as well as pay college 
expenses for the children of both families. This was a 
tremendous responsibility, and one that has not been without 
its challenges, but it has not been easy to fulfill the 
parents' wishes while also trying to respond to the needs of 8 
brothers, sisters--8 loving brothers and sisters and 5 cousins.
    In my statement to this committee 3 years ago I took the 
time to outline my background in farming and involvement in a 
variety of public service venues. Today though I'd like to 
share with you more about my passion for rural America and what 
I have learned during my tenure at USDA.
    First, during the period in which I served as Under 
Secretary, I was blessed to lead a talented and dedicated staff 
of professionals located at not just USDA's Rural Development 
headquarters here in Washington, DC, but in our service center 
in St. Louis and in our 47 State offices and subsequently 800 
local offices located across the country.
    It was gratifying, it was truly gratifying to watch these 
energetic and committed people work together as a team. We made 
great progress in expanding our outreach to qualified 
individuals and communities, making them aware of, and 
assisting them with our many USDA Rural Development programs. 
We put a special emphasis on minority outreach, and we began to 
tackle some very serious program issues that were there when we 
arrived.
    Our overriding goal during my time leading USDA Rural 
Development was to be the ADVOCATE for rural America, and we 
took that objective very, very seriously. I witnessed many 
examples of leadership and creativity from our team and our 
constituents as well, who worked with individual communities, 
which often helped facilitate and bring together a multitude of 
multiple funding sources such as Federal, State, nonprofit, 
local and private.
    I would like this morning just to share briefly with you 
two examples of the many that I witnessed in person of the 
successes that we encountered at Rural Development.
    The first is the Guadalupe Garcia family, who were part of 
a self-help housing program in Anthony, New Mexico, which is a 
small Colonias community just outside El Paso, Texas. Mr. 
Garcia is a machine operator with Tyson Foods. He and his wife 
I believe had two children. I happened to be fortunate to be 
there when they moved into their new home for the first time, a 
home with running water and central air and heating. It was 
truly a very emotional event, not just for them, but for all of 
us who were able to be there.
    However, the unique aspect of this program is that it was a 
collaborative effort between the community, between USDA Rural 
Development, the financial institution and the Garcias and a 
number of others involved in that self-help project. The 
remarkable thing was that a minimum of Federal investment was 
required, although there was plenty of sweat equity provided on 
the part of the Garcias. The result was a safe secure house, a 
stronger family that ultimately becomes part of a very viable 
rural community.
    The second example, although a bit more traditional, is 
equally unique, and that was my ability to attend the grand 
opening of something called Meadow Brook Farms, which was a 
producer-owned and value-added cooperative that was involved in 
pork slaughter--it is involved in pork slaughtering and process 
in Rantoul, Illinois.
    Starting back in 1998, James Burke, now the CEO of the 
company, and Melvin Weck, who is the Executive Vice President 
of their IT operation and is also a lifelong farmer of the 
area, were part of a uniquely organized producer cooperative 
that worked with local government, bankers and the State and 
national USDA Rural Development staff, amongst others, to put 
together this project. The effort has resulted in a facility 
that in 2004, its first year of operation, processed nearly 
690,000 hogs, utilizing a state-of-the-art animal ID and 
tracking system developed by these producers. The 200 producer 
members have a better market for their quality hogs, are 
building equity in the new venture, and have created over 300 
new jobs in the rural community.
    These two examples demonstrate the great work this Agency 
can accomplish with the support from the administration and 
Congress, plus that of a motivated and well-trained staff 
working in conjunction with the local communities all across 
rural America.
    We are entering an exciting time in rural America. In my 
view many--in many areas the out migration trends are in fact 
being reversed. We are seeing more young people staying in 
their hometowns to raise their families and care for aging 
parents, and boomers are moving back to smaller towns for the 
quality of life.
    We are also seeing significant gains in value-added 
agriculture, allowing smaller operations and co-ops to 
successfully compete in niche and emerging markets. This 
development has not only raised income for area farmers but 
also for many local investors. At the same time it has created 
new jobs in these communities and provided additional 
incentives for young people to not just stay but frequently 
move back to rural America.
    There are plenty of exciting--there are plenty of other 
exciting developments on the horizon for rural America. The 
list is virtually endless, limited only by our creativity and 
our dedication to developing significant new income sources for 
America's farmers, ranchers and local business people, which 
ultimately provide jobs and a better quality of life for those 
who choose to live in our rural communities.
    I understand fully how important USDA Rural Development 
programs are to the citizens in your States. This wonderful 
Agency has the tools to impact so many lives in a positive way 
at a very low cost to the taxpayer.
    If confirmed, I pledge to work tirelessly with you to make 
the vision of rural rejuvenation a reality. In that I suspect I 
will be, second only to Secretary Johanns, the most energetic 
champion at USDA for the future of rural communities.
    I thank you for holding this hearing and your consideration 
of my nomination, and I look forward to answering any questions 
you may have.
    The Chairman. Thank you very much, Mr. Dorr.
    Let me start out this morning by asking you a question that 
I do not expect you to give me a detailed answer on relative to 
your farming operation. During the past 4 years and in the 2002 
hearing, much has been made of your farming operation and your 
farm structure. I expect you to be thoroughly examined about 
some aspects of those today. I think it would be helpful if we 
just go back to the basics, and let you have the opportunity to 
explain, as you have somewhat alluded to in your statement, as 
to how your farming operation was structured. How your 
operation related to the family trust that will be referred to 
later in the questioning.
    Mr. Dorr. Thank you, Senator Chambliss. When I moved back 
to the family operation in 1971 it was composed of something in 
the neighborhood of 1,000 or 1,100 acres along with some grain 
operations as well. They were owned and operated jointly by my 
father and uncle.
    From that point on I was engaged in the business, starting 
as an employee, as a hand, ultimately evolving into more of a 
manager, and finally the full-time operator/manger of the 
operation, taking care of all of the essence of all the 
business opportunities.
    The Chairman. Mr. Dorr, what timeframe are we talking about 
here?
    Mr. Dorr. This evolved from 19--that evolution was from 
1971 through say 1975 to 1978.
    The Chairman. OK.
    Mr. Dorr. In late 1976 my father and my uncle, in their 
concern to maintain the integrity of the family farm, embarked 
on a series of estate planning initiatives, and the outgrowth 
of that was the formation of two family trusts that have been 
discussed extensively in 2002 and since. These two family 
trusts were designed as generation-skipping trusts to maintain 
the integrity of the family operation for anyone who cared to 
stay and operate the family farm.
    Those were the only two trusts outside of others that 
evolved from the process of probating the estate that were 
involved and that were developed. There were a couple of other 
family corporations that had been there for a number of years, 
and we grew the farm then from the early 1970's to around 2,200 
acres of family owned property by the time I left in 2001, and 
we were renting and custom-farming other properties as well.
    The Chairman. To your knowledge did the FSA, or what I 
guess then was ASCS maybe, USDA Inspector General's Office, or 
any other agency of the Federal Government ever accuse you of 
deliberately or knowingly falsifying documents or providing 
misleading information to the Federal Government, particularly 
to FSA?
    Mr. Dorr. No.
    The Chairman. USDA Rural Development has a staff of more 
than 7,000. It has a $90 billion loan portfolio. As you have 
stated, it is the advocate for rural America. It is the venture 
capitalist, and it builds the infrastructure for businesses, 
hospitals, communities and families. It is a crucial mission at 
USDA. In your opinion what makes you qualified to be Under 
Secretary for Rural Development?
    Mr. Dorr. Senator, I left home in 1964, went to college, 
worked for a large corporation for about 3 years and returned 
to the family farm I believe in, as I said earlier, in 1971.
    That experience in working on that farm, that grain 
company, growing up with it, working with a number of 
associates led me to then ultimately get involved because of my 
interest in the entirety of the rural community, and quite 
frankly, with a lot of urging from my parents, who believed 
strongly that we needed to give back to our communities, to get 
involved with a number of things that migrated from the county 
level, County Board of Review, all the way up to the Iowa Corn 
Growers, to the National Corn Growers.
    These iterations of experiences gave me a fairly 
significant insight I believe into what I felt were a number of 
the unexplored opportunities that could positively impact rural 
America. With that insight and those opportunities and those 
experiences over about 30 years, I felt that I had the 
qualities and the qualifications to facilitate the President's 
agenda serving in this position.
    The Chairman. For nearly 70 years Rural Development and its 
predecessor agencies have been providing assistance to rural 
America. In each succeeding farm bill we provide additional 
resources and emphasis on Rural Development. Clearly it is an 
important mission area at USDA. What is your vision for Rural 
Development over the next few years, and if confirmed, what 
will you do to make that vision a reality?
    Mr. Dorr. That is a terrific question and I appreciate it. 
The opportunity in rural America to increase--the vision at 
Rural Development is very simple, and this was enunciated 
shortly after I became the Under Secretary, and that was to 
increase economic opportunity and improve the quality of life 
for all rural Americans. There has been a significant 
transition taking place throughout rural America that makes 
these opportunities possible. We can improve the quality of 
life because Rural Development essentially is what amounts to a 
venture capital bank for all of rural America.
    When I got there they had a loan portfolio of about $60 
billion. Today it's $90 billion. The thing though that makes 
this all more likely to happen is that first of all we have 
some significant people in this organization. We have people of 
great caliber and integrity, and the interesting thing about it 
is that these are people that are State and local driven. They 
understand what's going on at the local level, so what happens 
is we drive ideas from the bottom up.
    Second, the programs at Rural Development run the gamut 
from the traditional REC, rural water and waste programs to the 
very unique new IT. We have information technology systems, 
venture capital, renewable energy. There are a whole array of 
opportunities that this rural resource base and the people in 
it have an opportunity to participate in with great economic 
opportunity.
    Finally, we have developed an outreach program that was 
designed to make certain that we reached out and identified 
those who really were qualified for our programs, both as 
individuals and communities, CBOs and others, that were not 
accessing them at the time, and this outreach program did a 
couple of things. It increased our understanding of our system. 
It made us more available, and it clearly energized those who 
were benefiting from us.
    Finally, tying all that together, what I found was that if 
we paid close attention to the President's management agenda, 
really zeroed in on performance budget integration, we could 
develop systems to very quickly respond to the changes that 
were taking place in rural America as they accommodated these 
programs. There is a great deal of opportunity out there. I've 
probably gone on a little bit long. These programs give us a 
great deal of flexibility.
    The Chairman. That obviously comes from your heart too, Mr. 
Dorr, which is great to hear. Without question it can be said 
that when you look across America farming is farming 
irrespective of what part of the country you come from. Clearly 
there are differences in the methods of farming, there are 
different crops grown in different areas of the country. You 
come from the midwest part of the Country where you grow a lot 
of soybeans and corn. Senator Coleman comes from an area where 
there is a lot of dairy, a lot of wheat grown. Senator Salazar 
comes from an area where a lot of wheat, maybe a lot of 
livestock is produced. I come from an area where there's a lot 
of row crops and a lot of vegetables grown. Clearly there are a 
lot of differences there that somebody at USDA has to look at 
from the aspect that farming is farming irrespective of what 
part of the country that it is located.
    Assuming you are confirmed in this position, are you going 
to be looking at farming as farming all across America, not 
with respect to your personal interest relative to any 
particular crop, or any particular section of the country? Are 
you willing to treat all farmers, all agri-business people and 
the implementation of Rural Development provisions of the Farm 
bill fairly and equally?
    Mr. Dorr. Senator, absolutely, and my record of the 15 or 
16 months I served as Under Secretary would more than justify 
that.
    The Chairman. Thank you.
    Senator Coleman. [Off microphone]--without objection. I 
fully support this nomination. I have heard from all my ag 
groups and rural advocates and they support it, and I just 
wanted that to be on the record before I leave.
    The Chairman. Certainly, without objection, Senator 
Coleman.
    We are going to proceed a little bit differently. Senator 
Harkin and I have agreed that he will have an extensive 
opportunity to examine Mr. Dorr, and that being the case, 
rather than giving Senator Harkin 5 minutes, 10 minutes, 
whatever he might want to start with, he is in agreement to 
allowing other Senators to ask questions, since you may have to 
be somewhere else today.
    We will move to Senator Salazar first for any questions 
that you might have.
    Senator Salazar. Thank you very much, Mr. Chairman 
amendment Ranking Member Harkin, and thank you for your 
leadership on agricultural issues and the leadership of this 
committee.
    I also want to say to you, Mr. Dorr, thank you for your 
service to our country and for coming before this committee 
this morning. I must say that it is a mark of tenacity to come 
back because you feel so passionately about the job and for 
rural America, and for that, I acknowledge and laud you for 
those efforts.
    You and I had a good meeting last week. I very much 
appreciated the conversation that we had where you stated some 
of the things that you have talked about this morning, the 
importance of rural America and getting a revitalized rural 
America. We also spoke about my own maiden speech on the floor 
of the U.S. Senate, where I talked about the forgotten America.
    I am open to the possibility of voting for you as this 
nomination moves forward. I do however want to go through this 
process and to hear the concerns that Senator Harkin and others 
have stated, and to also study the responses that you have.
    Let me just say at the outset that I asked for a letter 
from you that would articulate your vision and your program for 
what you wanted to accomplish in rural America in this position 
that you have been nominated for. I was disappointed that I did 
not get that letter on Monday. My staff called on Monday and 
again yesterday, and I still have not received that letter. The 
one thing that I will ask of you, Mr. Dorr, is that as we work 
together on this mutual agenda of rural America, I want to have 
the kind of relationship with you where if I request something, 
I want some response. At the end of the day this is a joint 
undertaking between the Executive and the legislative branches 
of Government. I would appreciate getting the letter that I 
requested by the end of the day today.
    Let me also say that I have read some of the materials, I 
am not as versed as the people who have been on this committee 
before and who have gone through these hearings in the past. I 
am certain that Senator Harkin, in his hour of inquiry will 
touch base on many questions.
    There is one question in particular though that I want to 
ask. That is a question relating to the comments that were made 
on diversity in a speech that you gave. This is from a speech 
that I know has been talked about--I have a copy of the 
transcription--in which you apparently were talking to a group 
of farmers.
    The comment that I have here is from when you made the 
statement that there are, I quote, ``...if they're not the 
three then two of these are the three--and would be Carroll 
County, Sioux County and Lyon County. You will notice when you 
get to looking at them that they are not particularly diverse, 
at least not ethnically diverse. They are very diverse in their 
economic growth, but they have been very focused, very 
nondiverse in their ethnic background and their religious 
background.'' ``There's obviously something there that has 
enabled them to succeed and to succeed very well.''
    I know very well, having been involved as a prosecutor, 
having worked on a lot of issues, and having been in the public 
world, that sometimes statements are taken out of context. I 
have not read the letters that Senator Chambliss spoke about 
from the Congressional Hispanic Caucus or the Congressional 
Black Caucus, but I would like you to talk to us about your own 
views of diversity and your own views of inclusion of people 
from all backgrounds in the things that you do and how you will 
proceed on that issue in the future, looking ahead, for the 
U.S. Department of Agriculture and the position that you have 
been nominated for.
    Mr. Dorr. Sure. First of all, let me simply say that I do 
believe the letter was delivered if not on Monday, yesterday. I 
apologize if it wasn't there on Monday, but I believe the 
letter was delivered yesterday.
    Second, those comments that you referred to were not with a 
group of farmers. It was actually a the university event that I 
was asked to be at, and review a proposal relative to a grant 
of money that had been given to the Agronomy Department of Iowa 
State University.
    Third, as you've clearly enunciated, they were in my view 
taken out of context. Probably it's important to reflect as 
much as anything on the opportunities that I've had to work 
with a number of minority organizations, sustainable small farm 
groups and others since I've been here serving at USDA's Rural 
Development. No. 1, that I related very well. I have a--
contrary to what perhaps the public perception may be, a very, 
very big heart when it comes to working with people who have 
frequently been less fortunate or had less opportunity than I 
have. I have been a very blessed guy. I know that. I've been a 
very fortunate fellow to have a loving family by and large and 
many opportunities.
    One of the things that I've encountered at Rural 
Development is there are a lot of old ongoing issues that 
everyone is struggling with, very honestly so. One of the 
things that I found, as an example, and as a result of 
attending a listening session at Alcorn State University, this 
wasn't where it first came up but it was where a lot of these 
things galvanized, is the access to credit issues and a number 
of other things that make it difficult for many in the minority 
community to actually aggregate equity.
    One of the problems is that there are very few African-
American appraisers or title company owners or surveyors or 
others who are able to actively work with members in their 
community that they trust.
    Senator Salazar. Let me if I may, because I do not want to 
take up more time here than--my red light is already on and the 
chairman is being very indulgent in my time here.
    Let me put a more focal point on my question. For me this 
America of ours has been very much an America in progress, from 
the Civil War, to the 13th and 14th Amendments, to Brown v. the 
Board of Education and to getting where we are today. We are 
not a perfect country, but we certainly are a country that has 
made tremendous progress. I want you to specifically answer 
this question for me. Take the African-American farming 
community, describe to me in a couple of minutes what your 
agenda would do to make sure that the African-American farming 
community receives the benefits of the work that you would be 
doing at USDA? Focus it on African-Americans.
    Mr. Dorr. We would work within the framework of the 
National Centers of Excellence, the 1890's Institutions and the 
other organizations that work with USDA to make sure that we do 
a good job of making certain they have the tools to participate 
in the American dream, that they have the ability to leverage 
their equity resources and other things that they utilize to 
grow and build their communities, their families, their farms, 
and build and own their own homes.
    Senator Salazar. Now, spin that out a little bit in terms 
of the specific action items that you would take as the Under 
Secretary of Agriculture to accomplish that vision. You started 
by saying access to capital----
    Mr. Dorr. Access to capital. We have to do a better job of 
facilitating the development and training of folks within those 
communities who have the ability to be surveyors, be people 
that the community trust and can work with so that they can 
build equity. We'll have to look at all of the programs that we 
have available and make sure that they are as friendly and user 
friendly as possible within that community.
    Rural Development does not directly participate in farm 
program activities at USDA, but in the context of our community 
development programs and other things, we will make sure that 
they function and function well within those communities.
    Senator Salazar. Let me ask you with respect to staff and 
diversity of staff within USDA. What kinds of efforts would you 
undertake to ensure that there is diversity within the staff? 
Is that an important issue to you? Is it something that you 
would aggressively undertake? Also what have you done in the 3 
years that you have served there as Senior Advisor to achieve 
diversity?
    Mr. Dorr. Diversity has always been a top agenda item 
within the Department. I've worked very, very closely with the 
Assistant Secretary for Civil Rights, Vernon Parker, and a 
number of others on these issues. I see no reason why we 
wouldn't continue to do that.
    Senator Salazar. Thank you, Mr. Chairman.
    Thank you, Mr. Dorr, for your responses.
    The Chairman. Senator Grassley.
    Senator Grassley. President Bush has nominated you to be 
Under Secretary for this Agency three different times. During 
your time as nominee you have endured intense public scrutiny 
of your farming operation and statements about you as a private 
citizen. Yet you sit before us again today responding openly 
and honestly to every question that is asked of you. Personally 
I have no doubts that you are the right person for the 
position, and I applaud President Bush for his persistence in 
continuing to nominate you. After all this, I am compelled to 
ask why do you want to be in this position?
    [Laughter.]
    Mr. Dorr. I've even asked myself that sometimes.
    I deliberated that at length, Senator. I deliberated at 
length with my wife and my family. As I said in my comment to 
Senator Salazar earlier, I've been a very blessed guy, had a 
terrific, terrific father and mother, terrific wife, and I've 
had a number of terrific experiences, and the thing that I know 
more than anything else is that rural America has had some 
difficulties. Rural America's been in a real funk since the 
late 1970's and emerged into the ag crisis of the 1980's. In 
the late 1990's and the early--in the early 2000's and on 
through the 2000's it became abundantly clear that with the 
advent of technology, of bandwidth access, access to knowledge 
and information and capital, it was creating an untold number 
of new and undeveloped opportunities for those who live there, 
and quite frankly, in many cases, for people who I had run 
into, who were moving back into these areas.
    In my view, particularly after driving to work every day in 
this moving parking lot in Washington, DC, it's clear to me 
that rural America and this evolving environment in which we 
have access to technology, when we have energy problems, we 
have access to renewable energy opportunities, and a whole host 
of things that only rural America truly has the ability to 
provide. It's too great an opportunity to pass up and not try 
to make sure that many of my fellow citizens in rural America 
can participate in this economic growth and activity. It's that 
simple. There's a lot of, a lot of hope out there and I want to 
be part of it.
    Senator Grassley. Let me ask you about a specific program 
and a specific problem. I need to compliment Senator Harkin for 
bringing this to my attention last night at a rural development 
conference or capitalization conference that he and I hosted. 
Senator Harkin mentioned that the Department has been slow 
allocating the $2 billion available for broadband and that 
there is still approximately one and six-tenths billion dollars 
at USDA. Could you please tell me what you would do as Under 
Secretary to ensure that this program is developed and managed 
to its full potential? I guess I would add to that, because 
Congress made a decision this money ought to be spent, and 
presumably it is not being spent. I rely upon Senator Harkin 
for that judgment, not my own. What would you do to get that 
money out?
    Mr. Dorr. Well, that's a good question. The 2002 Farm Bill 
was passed in June of--or May 1902, signed into law by the 
President May 1902. There was a very significant effort placed 
early on to conduct a field hearing to find out what sorts of 
things needed to be addressed in the deployment of those funds 
and that technology and making access to that new program.
    It's a unique program, and quite honestly, there have been 
a number of things that have occurred the last year that I 
frankly have not been involved in, not serving as the Under 
Secretary, not having any decisionmaking authority with regard 
to that. The thing that is important to remember in the 
broadband program is that it is unique, traditionally the rural 
utility system and the rural telecom programs were largely 
loans made to sole providers in rural areas on long-term 
assets, and those loans--there was a process developed and they 
understood those clearly. The technology involved in deploying 
broadband to do a couple of things, No. 1, get the money out 
quickly, and No. 2, make sure you don't make bad loans, and 
then ultimately have to deploy those resources on assets that 
frequently have life spans of only 5 years or on out to 30 
years is a complex new way in which you have to deal with this 
matter.
    If I am confirmed and had the ability to get engaged in 
this, I would frankly go to the outside, seek some outside 
expertise to help us get a better handle on how to analyze 
these loans so that we could deploy them in a more rapid and 
more effective and efficient manner, and yet maintain the 
integrity of the program.
    Senator Grassley. You are saying that if Congress makes a 
decision that this money ought to be spent, the only thing for 
not spending it would be to make sure that the loan was a wise 
loan. There is no philosophical opposition you have in this 
area of this money being used for this purpose.
    Mr. Dorr. None whatsoever. I'm probably as sold on 
technology as anyone.
    Senator Grassley. My last question then. The work of the 
Rural Housing Service is particularly important to me because I 
have seen the impact that single-family, multi-family and 
community facilities can have on individuals and communities in 
Iowa, as you know, Tom. One of my concerns has been the lack of 
solid information regarding multi-family housing portfolio. For 
many years it was clear that RHS was flying blind when it comes 
to portfolio. They could not tell us what types of housing were 
in the portfolio, and they could not verify the condition of 
the properties.
    As Under Secretary you initiated a comprehensive property 
assessment to determine what needs to be done to maintain that 
portfolio and to protect the low-income tenants who live in 
those properties. From all accounts, this process has been 
successful, and an excellent example of your leadership. Could 
you tell us some detail as to how this all came about?
    Mr. Dorr. I will try to keep this brief. It was probably 
one of the most significant, the multi-family housing and 
rental assistance and farm labor housing programs, probably 
some of the most complex and significant issues that we had to 
deal with. I believe rental assistance is perhaps the largest 
line item budget item in the entirety of the USDA budget, as 
I've been informed.
    The bottom line was that there had been a myriad of 
statutory and regulatory changes over a period of 20 years. 
Rental assistance was growing quite rapidly, and a couple of 
things were clear. No. 1, there was discussion about whether or 
not we need to save the program, and No. 2, how we were going 
to finance it.
    After getting together with a number of the best and 
brightest in our multi-family group and organization throughout 
Rural Development, by bringing in some statewide leaders, I 
determined, in conjunction with task force that had helped me 
collect this information, that the best thing we could do was 
to go out and bring in two of the best multi-family housing 
consultants we could find, and we were able to do that.
    In the course of that I gave them two charges--this was 
when I was serving as the Under Secretary--No. 1, find out 
whether or not we really need this program. I wanted to dispel 
that myth if there is a myth involved. No. 2, provide us with 
some answers in terms of how we revitalize the portfolio, how 
we go about revitalizing it in a cost effective manner.
    Out of that evolved a comprehensive property assessment. 
The comprehensive property assessment showed that of the 
455,000 units, there were 750,000 residents, that's less than 
three-tenths of 1 percent of the population. 75--the average 
income of the residents was $7,500. It was clear that we needed 
the properties. The properties had an average age of 26 years. 
On top of that we were having escalating rental assistance 
projects. We think--I believe, and I'm not sure where the Under 
Secretary, the Acting Under Secretary is relative to the 
decision, but we think we've identified a solution to 
essentially revitalize a $50 billion replacement cost portfolio 
for something less than $2 billion over a period of about 6, 7 
years.
    If that is what they ultimate decide to do at the Under 
Secretary's Office, we've done a remarkable job of revitalizing 
a portfolio and making--most importantly, protecting the 
tenants, and making available housing for those who can least 
afford it in rural America.
    Senator Salazar. Thank you, Mr. Chairman.
    The Chairman. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. What I will do is 
I will just defer to the Ranking Member at this point.
    The Chairman. Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman.
    Mr. Dorr, we appreciate having you here and we appreciate 
all of the good work that you do.
    Energy costs have a big impact on our economy, and you and 
I visited about this personally, but as you know, one of the 
provisions in the energy bill that is very important to me is 
the Renewable Energy Systems and Energy Efficiency Improvements 
Grant Program. This program holds a tremendous potential to 
stimulate development of our farm energy sources. It also 
presents an opportunity to address environmental concerns, and 
in Idaho we are very excited about the potential in this 
program to help develop anaerobic digesters. Do you agree that 
this program can help develop energy sources, and also address 
environmental concerns at the same time? If so, would you 
commit to work with me to help find ways to address the 
anaerobic digester issue?
    Mr. Dorr. I would. I agree with your interpretation. I 
would be delighted to work with you.
    Senator Crapo. What are your thoughts about the 
implementation of this program, the Renewable Energy Systems 
and Energy Efficiency Improvements Grant Program?
    Mr. Dorr. Like all of these new and innovative programs, 
they're somewhat complex, but the Department has done a good 
job of working with a multitude of agencies, and will continue 
to do that, and as a result can make these very effective 
programs over the long term.
    Senator Crapo. If you are confirmed, one of the things I 
want to do is be as effective as possible in leveraging 
resources, and it seems to me that this grant program is one of 
those. I guess I am basically just alerting you that I want to 
work closely with you on that and try to leverage resources to 
the maximum extent possible.
    One other question: many of us on this panel have 
recognized the importance of value-added agriculture, and we 
included the Value-added Grant Program in the 2002 Farm Bill, 
which is another program which I strongly support. In your 
opening statement you mentioned that value-added agriculture 
will become an even more important part of the rejuvenation of 
rural America, and I would just like to ask you if you would 
expand on that a little bit.
    Mr. Dorr. Well, very quickly, the evolution of ethanol has 
shown that research and technology can do some amazing things 
with the natural resource base that we have in this country, 
and clearly as we grapple with the energy issues and other 
things, and we begin to look more deeply into this, it's very 
evident that technology has grown by leaps and bounds. 
Renewable bio-based energies, biodiesel, wind energy and a 
number of these offer three or four great opportunities for 
rural America to leverage their asset base, increase economic 
activity, improve the quality of life, build jobs, build 
equity, and it's clearly something, that if confirmed, I will 
continue to look at, and look at in a very--I would look at in 
a very aggressive manner.
    Senator Crapo. Thank you very much. That is all the 
questions I wanted to ask of you. Before I yield my time back, 
I just wanted to take this opportunity once again to thank you 
for the great service that you have already provided at the 
Department, and to tell you that you have a tremendous amount 
of support here in the Senate, and I look forward to working 
with you after you are confirmed.
    Mr. Dorr. Thank you very much.
    Senator Crapo. Thank you very much.
    The Chairman. Thank you, Senator Crapo.
    We will now turn to Senator Harkin for questions.
    Senator Harkin. Thank you very much, Mr. Chairman.
    Mr. Dorr, I just wanted to start off by referring to the 
question that was asked by Senator Salazar regarding diversity. 
Your response to his question regarding the statement you made 
at Iowa State University was that it was taken out of context.
    Mr. Dorr. That's correct.
    Senator Harkin. Well, I watched the tape. I watched the 
tape of that whole thing. A person right before you--no, it was 
not the one right before you, it was like maybe two before you, 
preceding the person that spoke before you--said something 
about diversity and had talked about the importance and the 
value to rural communities of supporting diversity. Your 
statement in that--when you made that statement about 
diversity, you seemed to be responding directly to this. A lot 
of times we look at patterns, Mr. Dorr. You just say you were 
taken out of context. What is the context?
    First of all, as a member of the Board of Regents there was 
a big issue in Iowa about naming Iowa State University Stadium 
after Jack Trice. He was an African-American football player, 
and they wanted to name the stadium after him; students wanted 
to name the stadium after Jack Trice. There was a lot of heated 
debate about this at that time. It was finally decided to name 
the stadium after him. The Board of Regents voted on that. You 
voted against naming the stadium after Jack Trice.
    Then we have the statement at Iowa State that Mr. Salazar--
I am not going to read it again, it is in the record--when you 
said that there is something in these three counties that 
enable them to succeed. It may be their economic diversity but 
not their ethnic diversity. There is something there to that.
    Last, you wrote a letter to me, and I am going to have more 
to say about this letter, but you wrote a letter to me on 
October 8th, 1999, in which you talked about a number of 
different things, but you said, ``I'm sure my ranting won't 
change your approach to maintaining a constituency dependent on 
government revenue.'' I am reading your own words. ``But should 
you decide to take a few side trips through the Iowa 
countryside, you will see an inordinate number of homes 
surrounded by 5 to 10 cars. The homes generally have a value of 
less than $10,000. This just confirms my 10-car, $10,000 home 
theory. The more you try to help, the more you hinder. The 
results are everywhere.''
    Now, Mr. Dorr, when you take all of those, you see a 
pattern and so I am not certain that it was taken out of 
context. People grow and develop and they change their minds 
about things. Certainly my own thinking on race relations and 
minorities has developed a lot since my upbringing in a small 
town in rural Iowa. I guess I was hoping to hear you say that 
perhaps your thinking had evolved and that perhaps those 
statements may have reflected an earlier mindset, but now maybe 
that mindset has changed. All I heard was it was just taken out 
of context.
    Do you still maintain that all of the things I have said 
were just taken out of context?
    Mr. Dorr. Senator, we've gone through this at length 
earlier, much of this is in the record. The record that I've 
established and the opportunities that I've had to work within 
the minority community serving at Rural Development, and quite 
honestly prior to that in Iowa in a smaller way, and one must 
recognize that, as you've already indicated, Iowa has a very 
small minority population. I was quietly and privately before 
the events at Iowa State University and actually after that, 
attempting to find out why we were having difficulty placing 
slaughter plants in Iowa because of fears that they would be 
staffed by large numbers of hispanics.
    I worked privately with a number of folks trying to figure 
out ways to help establish hispanic banks so the hispanic 
community would feel more comfortable in originating 
homeownership loans and increasing their ability to participate 
in the American dream.
    My record at Rural Development, in working with a number of 
minority community and minority initiatives is well known. I 
don't know that I have to defend myself relative to my attitude 
toward race relations or my sensitivities toward minorities. I 
agree, when you grow up in a basically lily white State like 
Iowa you do evolve and change over a period of time. I was 
raised in a family, and quite frankly was taught generally 
speaking to be sensitive to everyone in every situation, and 
that's the way I've raised my family, that's the way I've tried 
to live my life. Again, I don't believe that those remarks at 
Iowa State University adequately reflect what was the context 
of that particular situation.
    Senator Harkin. Nor the comments you made in your letter to 
me about the $10,000 home and the 10-car--you said ``reflects 
my theory.'' I asked you at the hearing 3 years ago about that, 
and I have examined the record on that, and I cannot find 
anything that really tells me what that theory is. ``This just 
confirms my 10-car, $10,000 home theory.'' I read the record--I 
am sure you have too--and I said at the time, a lot of times 
poor people have a lot of cars around. I asked that question 
once, he says, ``Well, I've got a lot of cars because I've got 
to junk one to get the other one running.'' They do not have 
good cars.
    I am just wondering about the sensitivity to that in terms 
of the letter that you sent to me in 1999, and so I just ask, 
do you see how someone could interpret your remarks as 
insensitive? Do you have any comprehension that somebody might 
see this as being insensitive?
    Mr. Dorr. Senator, the remarks are the remarks. I'm not an 
insensitive person.
    Senator Harkin. My question was not whether you were 
sensitive. Could you see that someone might interpret your 
remarks and this pattern as being insensitive?
    Mr. Dorr. I believe my actions have actually--my actions 
have spoke very well of my sensitivity.
    Senator Harkin. Well, we can beat that one around.
    Mr. Chairman, I have a series of questions of Mr. Dorr that 
I would like to ask, and I hope the answers will not be too 
long and involved.
    Mr. Dorr, I wrote to you last Friday indicating that I 
would be referring to the record of the March 6, 2002 hearing, 
and that I would ask whether any part of that record ought to 
be clarified, corrected or completed. Do you have a response to 
that?
    Mr. Dorr. My response is, Senator, that I believe the 
record clearly reflects the hearing and the questions that were 
sent to me and which I responded to. The record, frankly, is a 
record. I realize that perhaps you or maybe some of your 
colleagues feel that it was not complete, but frankly, that is 
the information that I had available and I believe that is--the 
record reflects the hearing.
    Senator Harkin. It is your position as you appear before 
this committee today that the record of March 6, 2002, there is 
nothing that needs to be corrected, nothing that needs to be 
clarified, or nothing that needs to be completed?
    Mr. Dorr. Not that I'm aware of, no.
    Senator Harkin. Did you have a chance to go over that 
record?
    Mr. Dorr. Yes, I did.
    Senator Harkin. Well, let us start with what is established 
in the record, and then I have some matters that I hope we can 
clear up.
    At page 53 of the record--and if you have that record in 
front of you, you can refer to it. On page 53 of the record, 
Senator Dayton stated that the Farm Service Agency found that 
the Melvin G. Dorr Irrevocable Family Trust was in violation of 
the shares agreement in 1993, 1994 and 1995, and as a result, 
$17,000 was paid from that trust to FSA, and you said, ``That 
is correct.'' Now I believe the actual figure was $16,638. Is 
all of that correct?
    Mr. Dorr. I believe so.
    Senator Harkin. You believe so. On page 54 you stated that 
there was an arrangement between the Melvin G. Dorr Irrevocable 
Family Trust and Dorr's Pine Grove Farm, of which you were the 
CEO and sole stockholder along with your wife. Is that correct?
    Mr. Dorr. Correct.
    Senator Harkin. On page 56 you stated that the arrangement 
was that the Melvin Dorr Trust paid Dorr's Pine Grove Farm for 
machinery, management and marketing services. Is that correct?
    Mr. Dorr. Correct.
    Senator Harkin. On page 54 you state that you had the power 
of attorney to sign for this Melvin G. Dorr Trust at the FSA 
Office, and you did sign for that trust either as trustee or 
with the power of attorney. Is that correct?
    Mr. Dorr. That's correct.
    Senator Harkin. Again on page 55 you state that the Melvin 
Dorr Trust was, quote, ``set up as an operating entity entitled 
to receive 100 percent of the benefits from the various farm 
program payments,'' end quote. You signed USDA papers to do 
that, is that correct?
    Mr. Dorr. Correct.
    Senator Harkin. Now, if this Melvin Dorr Trust was 
receiving 100 percent of the payments, as you signed the trust 
up for the farm program, that would be appropriate if the trust 
was the operator and was hiring custom farming done. Is that 
your understanding?
    Mr. Dorr. Correct.
    Senator Harkin. Indeed, going to page 60 of the record, 
there is a discussion of signing papers at the ASCS or FSA 
office. You said, quote, ``On the M.G. Dorr Irrevocable Family 
Trust, I did, but I am--'' and then Senator Dayton interrupted 
you and said, ``You signed the documents?'' Mr. Dorr. ``That is 
right.'' Senator Dayton. ``Representing it as a custom fee 
arrangement?'' Mr. Dorr. ``That is right.''
    Just to recap, Mr. Dorr, you signed papers at FSA that the 
Melvin G. Dorr Irrevocable Family Trust was the operator, and 
basically so that USDA would believe that there was a custom 
farming arrangement. Is that correct?
    Mr. Dorr. That is correct.
    Senator Harkin. More specifically, on page 56 Senator 
Dayton said this: ``It was my understanding that ASCS, when 
they came in and did an evaluation determined that the reason 
the trust owed the $17,000 back''--well, it was slightly less 
than 17,000--``was because the trust had represented this 
arrangement as a custom fee arrangement, and in fact it was 
not, it was a crop share arrangement.'' End quote, that was 
Senator Dayton.
    You did not disagree with that statement. Is that not in 
fact a correct statement of USDA's conclusion about what the 
actual arrangement was between the Melvin Dorr Trust and Pine 
Grove Farm? Again, I am not asking what you believe, Mr. Dorr, 
but that is what USDA determined, that in fact it was a crop 
share arrangement. Is that correct?
    Mr. Dorr. Senator, the Melvin Dorr Trust was signed up--the 
Melvin Dorr Irrevocable Family Trust was signed up as an owner/
operator. Dorr's Pine Grove Farm Company provided custom 
farming services, management services, and stewardship services 
and marketing services as well, which they were reimbursed for. 
That was part of this record.
    The end of year review determined that they thought it was 
something other than that. The trustees, of whom I was one, 
yes, I was given the power of attorney to sign up for farm 
programs at the FSA, but the trustees requested a meeting with 
the End-of-Year Review Committee after they made their decision 
and were denied.
    In the context of working with legal counsel, he advised us 
that if we appealed this decision we could likely overturn the 
decision, but in all likelihood it would cost us about two 
times as much money or maybe even more, and to repay. He 
suggested that we just go ahead and pay back the fees and ask 
them how they wanted us to operate the farm if this wasn't 
appropriate, which is exactly what we did. That's what I stated 
back in March of 2002. That's what the case was.
    Senator Harkin. Now, obviously, we have other documents 
that came to our attention after that hearing, and we were 
unable to present these at the very brief and cursory hearing 
that we had in 2003, if I am not mistaken, 2003. In fact--and I 
would ask that the copy of a letter from Steven Phillips, the 
Iowa State FSA Office to James Little, Administrator of FSA, 
dated June 25th, 2002 be made a part of the record.
    Well, I will ask it when the chairman comes back.
    Senator Crapo [presiding]. I will step in and assume the 
role, and without objection that will be so ordered.
    [The letter from Steven Phillips, the Iowa State FSA Office 
to James Little, Administrator of FSA, dated June 25, 2002 can 
be found in the appendix on page 325.]
    Senator Harkin. Thank you, Mr. Chairman.
    I want to have to have that because I want to correctly 
point out and ask if this is correct. First I will interject 
here that you said the end of the review--your End-of-Year 
Review Committee determined that that was not a custom farming 
arrangement.
    Mr. Dorr. They determined that there was an inappropriate 
division of----
    Senator Harkin. Shares.
    Mr. Dorr. Shares.
    Senator Harkin. Exactly. That is because that was not a 
crop share arrangement--it was not a custom farm arrangement. 
Is it not true, Mr. Dorr, that there are three separate times 
that either the Department of Agriculture of the Office of 
Inspector General determined that this was a crop share 
arrangement and not a custom farm arrangement? No. 1, the End-
of-Year Review Committee, second an investigation by the Office 
of Inspector General of the Department of agriculture, and 
third a special team from FSA was sent to investigate this. All 
three determined the same thing, so it was not just the End-of-
Year Review Committee that determined that there was a shares 
violation based upon the fact that the arrangement that was 
stipulated was not in fact a custom farming arrangement, but 
was a crop share arrangement. That is what they determined. I 
am not asking what you believe, but this is what three separate 
entities said.
    Mr. Dorr. Obviously we disagreed with them.
    Senator Harkin. You do not disagree that three separate 
entities found that?
    Mr. Dorr. I do not know about the other two entities.
    Senator Harkin. Well----
    Mr. Dorr. I know that the OIG did an investigation. I don't 
know--frankly, that they addressed the inappropriate division 
of shares. I didn't--I'm not cognizant that that was the issue.
    Senator Harkin. Yes, they did. There was also a special 
team from FSA sent out to investigate this. Now, again, I will 
have those put in the record. I just want to make it clear that 
it was not just the End-of-the-Year Review Committee.
    Mr. Dorr. I would also add that the county committee, 
Senator, early on made a determination that there was not an 
issue here too.
    Senator Harkin. The county committee decided that there was 
not a shares violation.
    Mr. Dorr. That's correct.
    Senator Harkin. Did they have all the appropriate 
documentation in their hands at that time by which they needed 
to make that decision?
    Mr. Dorr. I don't know. They had all the documentation that 
they had requested.
    Senator Harkin. A lot of this came to light later on after 
the county had made their decision. I don't know if the county 
ever went back and reviewed it. I don't think so.
    I am told, Mr. Dorr, that the State FSA Committee did, in 
fact, go back to the county committee and ask them to reexamine 
it, and that the county committee did, in fact, find a shares 
violation. Is that correct? I am told by my counsel that that 
is correct. Again, the county committee did not initially found 
a shares violation, but when they went back and investigated it 
later on, after they had the documentation that they needed, 
they did find a shares violation.
    Mr. Dorr. OK. If the end-of-year review committee 
recommendations went to the county and the county concurred, 
then, yes, they did.
    Senator Harkin. Correct me if I am wrong. Mr. Dorr, did you 
just say that the trustees requested to meet with the county 
committee and were not allowed?
    Mr. Dorr. No. I said that the trustees requested a meeting 
with the end-of-year review committee to review their decision, 
and that was not allowed.
    Senator Harkin. Well, Mr. Dorr, I am a little confused here 
because I have some minutes here of a meeting that took place 
at 9 a.m., December 5, 1996.
    [Pause.]
    Senator Harkin. You did meet with the county committee.
    Mr. Dorr. That's correct.
    Senator Harkin. At the end of the year.
    Mr. Dorr. I shouldn't say that's correct. This is 9, going 
on 10 years ago, so I don't frankly have a document listing all 
those meetings, nor do I have that available.
    Senator Harkin. It looks as though you did have a chance to 
meet with the county committee, but whether you met with the 
end-of-year review committee I cannot determine that. I don't 
know that.
    I ask that copies of all three of those--the end-of-year 
review committee, the investigation by the OIG, and the special 
team from the FSA--all be included in the record, and Senator 
Crapo acting for you said that that would be OK.
    The Chairman. Without objection.
    Senator Harkin. Now, let's turn to the Harold E. Dorr 
Irrevocable Family Trust. I ask you to look at a document that 
was attached to a letter from Secretary Veneman.
    Senator Salazar. Can I have 1 minute? I have another 
meeting that I have to run to.
    Senator Harkin. I would be glad to yield.
    The Chairman. Senator Salazar.
    Senator Salazar. Thank you, Mr. Chairman.
    Mr. Dorr, I very much appreciated the response that you 
sent to me concerning the letter that I wanted from you 
outlining six different areas under which you wanted to work on 
an agenda on rural development. I am going to formally request 
of you that you get to me something that elaborates on each of 
the six points that you set forth in that letter. What I am 
looking for, prior to making my decision on how to move forward 
with this vote, is an action plan under each of the six 
subjects that you discuss in your letter. Will you agree to do 
that for me?
    Mr. Dorr. We will take a look at that, and we will do the 
best we can, yes, Senator.
    Senator Salazar. OK. I am telling you, Mr. Dorr, what I 
really want here is a specific set of an action plan that you 
intend to implement over the next 4 years while you serve in 
this position, if confirmed. That will be very important to me 
as I move forward in my deliberation on this decision.
    Mr. Dorr. Senator, I am not trying to be evasive. I will do 
the best I can in all of those, yes.
    Senator Salazar. Thank you.
    Thank you, Mr. Chairman, and thank you, Senator.
    Senator Harkin. Thank you, Senator.
    Mr. Dorr, you have a copy of a letter and attachments that 
were sent to me on June 27, 2002, stamp dated that time, signed 
by Ann Veneman, Secretary of Agriculture, with attachments 
thereto. I asked my staff to give that to you.
    Mr. Dorr. I have it.
    Senator Harkin. I would ask you to look at it. Isn't it 
true that the Harold E. Dorr Irrevocable Family Trust had to 
repay $17,151.87 because they were also found to have a shares 
violation for the 1994 and 1995 crop years?
    Mr. Dorr. I'm not privy to the specific details of that, 
but generally speaking that's correct.
    Senator Harkin. Well, that was stated in the letter back 
here from Michael Houston, County Executive Director, to the 
Harold E. Dorr Irrevocable Family Trust, c/o Donald J. Dorr, 
stating that the county committee had determined that the trust 
owed $17,151.87 plus interest as applicable. Again, they found 
that they had a shares violation for 1994 and 1995 crop years.
    At the top of page 59, again, referring back to the record 
of 2002, following a reference to the repayment by the Melvin 
Dorr Family Trust, Senator Dayton asked you this:
    ``You have described here having a similar arrangement with 
the Harold Dorr Trust?''
    You said, ``That is correct.''
    Just a few lines later, again Senator Dayton, referring to 
the Harold Dorr Trust, said, ``It was the same arrangement as 
with the other trust.''
    You said, ``It was the same arrangement with the other 
trust, and the reason these were set up was because my uncle, 
shortly before his death, asked me to do that.''
    Now, this is all in the record, and again, I ask you: Is 
this record correct?
    Mr. Dorr. As far as I know, yes.
    Senator Harkin. Both the Melvin Dorr and the Harold Dorr 
Irrevocable Family Trusts had the same arrangement with Pine 
Grove Farm, your company. Is that correct?
    Mr. Dorr. Both trusts were set up as owner-operators at the 
FSA office. Both engaged Dorr's Pine Grove Farm and Tom Dorr to 
provide custom farming services, marketing services, management 
and land stewardship services, which we were reimbursed for by 
those trusts, that was the arrangement.
    Senator Harkin. That is how you filed it at the county 
office?
    Mr. Dorr. We filed the trusts. I filed the Melvin G. Dorr 
Irrevocable Family Trust. The Harold Dorr Family Trust filed 
theirs. I believe my aunt made the original filing back in 1988 
or 1989 as owner-operators, yes.
    Senator Harkin. As for your signing papers as the ASCS 
office or FSA on behalf of the Harold Dorr Trust, on page 48 of 
the record, you said, ``I believe the record shows that I had 
power of attorney for the various family entities with regard 
to filing papers at the ASCS or now the FSA office.'' You had 
the power of attorney signing all this?
    Mr. Dorr. I had the power of attorney to sign these myriad 
of forms at the FSA or ASCS office at the time, yes. I did 
not--I believe, the record shows that, too, that I did not file 
any of the forms for the Harold Dorr Irrevocable Family Trust 
indicating that it was an owner-operator. I believe that was 
done by my Aunt Belva that was the trustee.
    Senator Harkin. Was that done by Donald Dorr?
    Mr. Dorr. I believe that was done back in 1988 or 1989 by 
my Aunt Belva Dorr.
    Senator Harkin. Well, I have here a copy of a CCC-477, 
which indicates that all of the shares go to the trust. I see 
that. The signature is Harold E. Dorr Irrev.--I-r-r-e-v.--
Family Trust, and it's signed by Thomas Dorr.
    Mr. Dorr. That was what form?
    Senator Harkin. POA--that's the Form CCC-477, which I 
understand is the form that you sign up intending to 
participate in the----
    Mr. Dorr. That's correct.
    Senator Harkin [continuing]. Program, in the program.
    Mr. Dorr. That's correct.
    Senator Harkin. This was----
    Mr. Dorr. I don't believe that's the form that indicates 
that it's an owner-operator.
    Senator Harkin. Here is 1995 and here is 1994 and here is 
1993, and all three are signed by you, power of attorney. POA, 
I assume that's what that stands for.
    Mr. Dorr. Correct.
    Senator Harkin. What it says is that a 100 percent share, 
all, every one of them, and you signed it.
    Mr. Dorr. On the Form 477s?
    Senator Harkin. Yes.
    Mr. Dorr. Yes.
    Senator Harkin. Well, this is the form on which you attest 
as to where the percent shares go, and it says all, and it's to 
the Harold E. Dorr Trust, not the Melvin Dorr Trust.
    Mr. Dorr. Yes.
    [Pause.]
    Senator Harkin. Yes, my counsel tells me that is right, 
that the years I just mentioned and the documents I have here, 
the copies of the CCC-477s for 1993, 1994, and 1995, were for 
the same years where you claimed that it was operated as a 
custom farming operation. Is that right?
    Mr. Dorr. Dorr's Pine Grove Farm was hired by those 
trusts--that trust to do the custom farming, to do the 
marketing, land stewardship, land management for the trusts, 
and they were compensated accordingly.
    Senator Harkin. OK. Mr. Chairman, I would ask that a copy 
of these be made part of the record in their entirety.
    The Chairman. Do you want to identify exactly what they 
are?
    Senator Harkin. Yes, these are copies of three forms, CCC-
477s for the Department of Agriculture. I will go through them 
seriatim here. The first one I guess I would identify as being 
1993, and I don't know if the codes mean anything or not.
    The Chairman. Just some general description so we can 
make----
    Senator Harkin. OK. These are CCC-477 forms signed by Mr. 
Dorr, one for 1993, one for 1994, and one for 1995.
    The Chairman. They will be entered without objection.
    Senator Harkin. Thank you, Mr. Chairman.
    [The forms CCC-477, signed by Mr. Dorr, for the years 1993, 
1994, and 1995 can be found in the appendix on page 196.]
    Senator Harkin. OK. Now we have established clearly that 
trail, that, in fact, when you signed those documents, you 
signed it as a custom farming arrangement. Now, there was some 
discussion about whether you signed those, but it is, in fact, 
that you did sign those papers, indicating 100-percent share of 
the payments and that it is a custom farming arrangement. I 
just want to make sure that so far we agree on that, that you 
signed those papers indicating that it was a custom farming 
arrangement, that all shares should go to the trust, Harold E. 
Dorr Trust.
    Mr. Dorr. I signed those forms indicating that the Harold 
Dorr Trust--Harold Dorr Irrevocable Family Trust was the owner 
and the operator. They were free to go out and hire whoever 
they wanted to do the farming operations.
    Senator Harkin. There is a block on there that says percent 
shares, and you said all, and you signed to that.
    Mr. Dorr. I said that all the shares of the farm program 
payments would go to the Harold E. Dorr Irrevocable Family 
Trust as directed by the trustees of that trust to do so.
    Senator Harkin. Exactly. Again, Mr. Dorr, the repayment 
from the Harold Dorr Trust to USDA was because USDA found a 
shares violation based on their determination that it was not 
custom farming but instead it was, they concluded, a crop share 
arrangement.
    Again, I am not asking what you believe. I am asking what 
USDA found. Is that correct, that they found this not to be a 
custom farming but a crop share arrangement?
    Mr. Dorr. Apparently so.
    Senator Harkin. Now, I just want to review briefly the 
history of the arrangements between Dorr's Pine Grove Farms and 
the two trusts--the Melvin G. Dorr Irrevocable Family Trust and 
the Harold E. Dorr Irrevocable Family Trust. Can we have that 
chart here again?
    Mr. Chairman, I ask the indulgence of the committee just a 
second to put a chart up.
    This may look familiar, Mr. Dorr. We had this in 1992--I am 
sorry, in 2002. Of all the different entities and arrangements 
that you had from crop year 1988 to 1992.
    Let's do a little bit of a history here. On page 65 of this 
record--and I want to look at that now myself. On page 65 of 
the record--I am referring now to the record of the hearing of 
2002. You testified that until 1988, I am sorry, or 1989, 
Dorr's Pine Grove Farm had a crop share arrangement with these 
two family trusts. Again, it seems here that you were not 
certain which year it changed. Is that correct?
    Mr. Dorr. Yes, it was 1988 or 1989.
    Senator Harkin. Prior to that, you testified that it was a 
crop share arrangement.
    Mr. Dorr. That's correct.
    Senator Harkin. Again, on page 65, Mr. Dorr, you said, ``I 
do not know what year exactly it was, Senator, whether it was 
1989 or 1988. I cannot remember for sure what year it was.''
    ``The Chairman. This is the same operation''--``the same 
operation''--``that you had from 1989 to 1995, but during that 
period of time you called it custom farming for those years.''
    ``Mr. Dorr. That is correct.''
    ``The Chairman. Before, it was crop share; after that, it 
was custom farming, and yet nothing else had changed?''
    I wanted to find this exact quote here. You said, 
``Correct,
    [except that] my uncle [had] approached me.''
    It certainly appears that nothing changed, even according 
to your own testimony, except how you characterized the 
arrangement to the USDA office and the paperwork that you or 
perhaps your aunt had on occasion signed at USDA. It looks like 
whatever was being done before 1988 or 1989 continued on, the 
same arrangement continued on, nothing changed, except how you 
presented that to the local county office.
    Now, again, to shed some further light on the history of 
these arrangements, I want to direct your attention to this 
document provided to the committee as an attachment to a letter 
from Secretary Veneman dated June 27, 2002, which I referred to 
earlier. This document contains information on payments and 
shares for years from 1988 through 1993 for both the Melvin G. 
Dorr and Harold E. Dorr Trusts.
    Now, that would be back here on--there's a page that has 
Harold Dorr Irrevocable Family Trust and then at the bottom it 
has Melvin G. Dorr Irrevocable Family Trust.
    I want you to look at the figures for the years that were 
not involved in the audits that resulted in repayments to USDA; 
that is, for the Melvin G. Dorr Trust, that would be 1988, 
1989, 1990, 1991. For the Harold Dorr Trust, that would be 1988 
to 1993--I am sorry. The first one would be 1988 to 1992. That 
is the Melvin Dorr Trust. The Harold Dorr Trust was 1988 to 
1993.
    Now, what these figures on this page is that in 1988 
through 1993 the Melvin Dorr Trust had a 100-percent CCC-477 
share, and for 1990 through 1993 the Harold Dorr Trust had a 
100-percent CCC-477 share; and that for all 5 years, the trusts 
were signed up to receive 100 percent of the Farm Program 
payments. That is what this shows. Is that correct?
    Mr. Dorr. Apparently.
    Senator Harkin. The document shows that for the years 1988 
through 1992, the Melvin Dorr Trust received USDA payments of 
$35,377. Further, for the years 1988 through 1993, the Harold 
Dorr Trust received at least $35,025 in USDA payments.
    Now, it had to be more than that since the payment 
information for 1988 and 1989 is not available, as this thing 
shows. Again, I hope--do you agree on those figures?
    Mr. Dorr. I have no records to know whether or not those 
figures are correct, but if you have them from the FSA office--
--
    Senator Harkin. This is from the FSA office.
    Mr. Dorr. That's the best that I have access to.
    Senator Harkin. I have asked for this to be put in the 
record. I already asked for this to be put in the record.
    Again, apart from the money that was paid to USDA by these 
trusts, there is an additional amount in excess of $70,000 in 
earlier years that was received under the same facts and 
circumstances that led USDA to require repayment of amounts 
received in 1993, 1994, and 1995. Now, again, this is before 
any penalties or interest. That $70,000 was not looked into, 
nor was it repaid. It seems clear that it stands on exactly the 
same basis as the money that the trusts were required to pay 
back to USDA. Again, the reason they had to pay that money back 
was that the nature of the farming arrangements was not truly 
represented to USDA. You, Mr. Dorr, were the person principally 
involved in making these representations and signing these 
representations to the USDA.
    Mr. Chairman, I am pointing out and the reason for this 
whole line of questioning was to point out that through all 
these years, prior to 1988 up to 1995, that the farming 
operations between Pine Grove Farms, Inc., of which Mr. Tom 
Dorr was the sole stockholder, shareholder, I guess along with 
his wife, the arrangement that Pine Grove Farms had with these 
trusts remained the same. By his own testimony, Mr. Dorr said 
that nothing changed except how it was represented to USDA. If 
it was a crop share basis before, it has never been fully 
explained, Mr. Dorr, why it was not a crop share arrangement 
afterward because you testified that it was the same basic 
operation. The only thing that changed is what you said to 
USDA. If it was crop share before, why wasn't it crop share 
after that?
    Mr. Dorr. As I've indicated, Senator, those decisions were 
made 17 years ago. They were made at aging parents and aging 
aunts and uncles. They were made for legitimate management 
reasons. We did not agree with the end-of-year review. It was 
interesting to me that once the Melvin G. Dorr end-of-year 
review was done, they never did an end-of-year review on the 
Harold Dorr Irrevocable Family Trust until I became nominated.
    We don't agree with the ruling. We think that the 
management fees, the marketing fees, the stewardship fees that 
were paid were appropriate. That's what the arrangement was.
    Senator Harkin. Well, Mr. Chairman, I have asked myself--
and this has gone back to the first times of this hearing when 
all this came out--why was all this done? Mr. Dorr by his own 
words recorded on a conversation with his brother that has been 
extensively viewed--or listened to, himself said why it was 
done, not for aging aunts and uncles or anything like that, 
but, Mr. Chairman, I would like to request that the 7 minutes 
of that tape be played for this committee to hear.
    The Chairman. As per our previous agreement, the CD of this 
recording will be played. I assume you have some mechanism to--
--
    Senator Harkin. Well, I asked the staff. I don't know this 
stuff.
    [CD played.]
    Senator Harkin. Mr. Chairman, the transcript of this tape 
was not put in the record previously yet. I would ask that the 
transcript be made a part of the record.
    The Chairman. Without objection.
    [The transcript of Mr. Dorr's recorded conversation with 
his brother can be found in the appendix on page 201.]
    Senator Harkin. Well, there you have it. Mr. Dorr, you did 
that, as you said by your own words. By your own words. You say 
some interesting things: first, it has always been done that 
way; and then, second, that you say that you have done this to 
avoid the minimum payment limitation. Is that not correct?
    Mr. Dorr. I believe I also indicated that it was 
appropriate to do that when we did it.
    Senator Harkin. Wait a minute. It was appropriate to file--
to change the filing of your operation from crop share to 
custom farming in order to avoid minimum--in order to avoid the 
payment limitations. You say that that was correct, that was OK 
to do that?
    Mr. Dorr. I believe that everything we registered with the 
FSA office at the time we did it was legal and appropriate, 
yes.
    Senator Harkin. Well, Mr. Dorr, this is what is really 
baffling here in that you have said on the record that it was 
custom farming, and yet here in this phone conversation, you 
say it was a crop share basis and it sells all the crop and it 
reimburses us with a 50/50 split basis.
    Now, either what you said on the tape is wrong or what you 
filed with USDA is wrong. They both cannot be right. USDA did 
not say it was correct. That is why they asked the trusts to 
pay the money back. They did not find it appropriate. You say 
it is appropriate. USDA did not say it was appropriate when 
they revisited it.
    Well, Mr. Chairman, that is really the essence of that. I 
have one other letter that I wanted to include in the record, 
and that was the letter--do you have that letter? Where is it?
    I asked Professor Neil Harl at Iowa State University, who 
knows a lot about farming arrangements and trusts, and is a 
recognized expert--he is the Charles F. Curtiss Distinguished 
Professor in Agriculture at Iowa State--to look at all of these 
arrangements. That letter is dated July 29, 2002, and I would 
ask that that letter be made a part of the record.
    The Chairman. Without objection.
    [The letter dated July 29, 2002 of the Charles F. Curtis 
Distinguised Professor in Agriculture at Iowa State, can be 
found in the appendix on page 204.]
    Senator Harkin. Again, Mr. Chairman, I really thank you for 
your indulgence in this matter. This is something that has 
bothered me for a long time and continues to bother me. I hope 
I will be done here very shortly and we will be out of here.
    The deficiency payments varied each year. When the producer 
signs up for the Farm Program in the spring on those forms, the 
477 forms, the producer does not know the final deficiency 
payment rate. Mr. Dorr could not have predicted what the 
deficiency payment would be in future years, but he certainly 
could have known that in the case of low corn prices, his Pine 
Grove Farm could exceed the payment limitation if the payments 
went to Pine Grove Farm, as they should, under a crop share 
arrangement.
    USDA found that the farming arrangement between the two 
trusts and Dorr's Pine Grove Farm was not truly represented to 
USDA. It was represented as custom farming. USDA concluded it 
was a crop share lease.
    Now, again, Mr. Dorr has said he disagrees with USDA's 
finding, but Mr. Dorr signed the papers to the effect that it 
was custom farming, but on this telephone conversation openly 
says, ``I get a crop share on this arrangement.'' Both cannot 
stand individually.
    What would the motivation be for that change, that change 
that happened in 1988 or 1989 when, by his own words, Mr. Dorr 
says nothing changed in the farming operation. He went down to 
the ASCS office and changed the way that it was represented.
    Well, what is the motivation? We heard the tape. Calling is 
custom farming moved USDA payments to the trust that should 
have gone to Dorr's Pine Grove Farm in a crop share which USDA 
found was the really true arrangement here. Mr. Dorr said in 
his response to a question from Senator Conrad, page 393--this 
was a written question submitted by Senator Conrad. Mr. Dorr 
said that there was no exceeding of payment limitations in any 
of the years, even if the payments to the trusts and Dorr's 
Pine Grove Farm are all combined. That is not the point. The 
issue is whether misrepresenting the actual farming operation 
had to do with evading the potential to exceed payment 
limitations.
    If we use Mr. Dorr's chosen method of combining the trust 
payments plus the payments to Dorr's Pine Grove Farm--let's use 
that method. If you combine the trust payments plus the 
payments to Dorr's Pine Grove Farm, remember, it was evading 
the potential to exceed the payment limitation for Dorr's Pine 
Grove Farm that is the issue.
    If you look at the potential maximum combined payments, we 
see the combined payments could have exceeded $50,000 in 1989, 
in 1991, and perhaps even 1990 or 1992, had they been paid as a 
crop share basis rather than custom farming.
    Again, that really is the point of what we are trying to 
point out here. The fact that, as I have said before, someone 
who is entrusted with a high position as Under Secretary of 
Agriculture, with this in the background, sends a very bad 
signal to farmers, to anyone who is partaking of Government 
programs.
    Now, I have never said that people should not try to 
minimize their taxes or things like that, as long as it is done 
legally. As long as things are done legally and forthrightly, 
and as long as things are done in a way not to cheat the 
Government or misrepresent how an entity is structured--well, 
if you do it that way, then that is wrong.
    Anyway, just a second. I am sorry. Mr. Chairman, one other 
thing, just to--I hope this is the last--have a table put into 
the record at this point regarding farm payment scenarios with 
target prices and loan rates for the years 1989, 1990, 1991, 
1992, 1993, and 1994.
    The Chairman. Without objection.
    [The table of farm payment scenarios with target prices and 
loan rates for years 1989, 1990, 1991, 1992, 1993, and 1994 can 
be found in the appendix on page 207.]
    Senator Harkin. Mr. Dorr, you were a trustee of the Melvin 
G. Dorr irrevocable family trust, is that correct?
    Mr. Dorr. That's correct.
    Senator Harkin. Are you still a trustee of that?
    Mr. Dorr. No.
    Senator Harkin. Were you at this time in question also a 
trustee of the Harold E. Dorr?
    Mr. Dorr. No.
    Senator Harkin. Just the Melvin G. Dorr----
    Mr. Dorr. That's correct.
    Senator Harkin [continuing]. Irrevocable family trust. You 
also had power of attorney for the Melvin G. Dorr irrevocable 
family trust?
    Mr. Dorr. That's correct.
    Senator Harkin. Again, Mr. Dorr, my question here gets to 
how you see your responsibilities. Now, again, I realize that 
families want to keep farms as viable operations. Is not your 
fiduciary responsibility as a trustee of the Melvin G. Dorr 
irrevocable family trust, is not your responsibility and 
obligation to get the best possible return for the trust?
    Mr. Dorr. Sure.
    Senator Harkin. Do you believe that the arrangement that 
you had set up gave them the best return?
    Mr. Dorr. The custom farming and management arrangement we 
had set up was a good return for them, yes.
    Senator Harkin. Well, did you ever consider relinquishing 
your position as trustee during the years that you, through 
Dorr's Pine Grove Farm and PGF seeds, purchased inputs, farmed 
the land, and marketed the grain? Are you not also operating in 
Pine Grove's interest at that time?
    Mr. Dorr. Obviously, yes.
    Senator Harkin. You did not consider relinquishing your 
position as trustee of the Melvin G. Dorr irrevocable family 
trust? Again, the reason I ask that question, because if you 
assume this position of under secretary, then you have certain 
responsibilities and commitments. It has to be clearly 
delineated where those interests and where those 
responsibilities lie. Again, I would think as a trustee that 
you would have recognized that that was in conflict with your 
operations, or could potentially be a conflict with your 
operations on Pine Grove Farms and with the arrangements that 
you had with the Melvin G. Dorr irrevocable family trust.
    I just have a couple of things. I want to loop back again 
where I started. Actually, I was going to finish on this, but I 
started on it, and that has to do with the letter that you sent 
me in 1999, October 8, 1999, and again, in which you say that--
well, first of all, you are complaining about the access fee, 
the Federal universal access fee under telephone charges, which 
I in 2002 pointed out that this money helps rural communities. 
Here is what you said: With these kind of taxation and 
subsidies, you collectively are responsible for turning Iowa 
into a State of peasants totally dependent on your largesse. 
Should you decide to take a few side trips to the Iowa 
countryside, you will see an inordinate number of homes 
surrounded by five to 10 cars. The homes generally have a value 
of less than $10,000, which just confirms my 10-car, $10,000-
home theory. The more you try to help, the more you hinder. The 
results are everywhere.
    Again, Mr. Dorr, 3 years later, I would like to ask you 
again to explain the $10,000-home, 10-car theory. What is that 
theory? What is it a theory of?
    Mr. Dorr. It's appropriately stated in my note to you at 
the time, that was from a constituent to a Senator, not under 
the guise of the expectation that it would be something 
presented at a hearing.
    I feel pretty passionately, Senator, about creating 
economic opportunities in rural America so those perhaps 
hardest--some of us have the opportunity to gain an economic 
foothold to build equity. As a matter of fact, in the context 
of my operation and my business, I work very, very closely with 
my associates, helped one of them get a college education, 
helped another one buy a couple of homes, and get started so he 
had home ownership. The essence of it is, is that if you--every 
time you turn around they have more taxes to pay, it becomes 
more and more difficult for them to get the leg up that they 
need.
    That was an outgrowth of my frustration with the increase 
in that particular tax at the time, that was stimulated, 
actually, by one of my associates who came out to me and showed 
it to me. It is absolutely no reflection on my view or my 
attitude about those in rural America that need a leg up and 
that we clearly work with, rural development, and that I have a 
long history of having worked with in my community and in a 
number of things that I have been involved with over the years.
    To the extent that sheds any light on that comment, that's 
probably the best I can do at this point.
    Senator Harkin. Well, first of all, I would point out, 
again, as I did in the record at that time, that the national 
access fee you complained about for $4.31 was not a tax, even 
though you might have thought it was. It is the cost that long-
distance companies pay the local telephone companies to cover 
some of the fixed costs. The tax that you had here was the 
universal access fee, it was 3 cents. You called it 
confiscatory. I pointed out at the time that a lot of this goes 
to help our rural schools, hospitals, and things like that.
    This idea that somehow the more you help, the more you 
hinder, I asked you at the time--and I will refer back to the 
hearing--I said, Well, I still find this a little baffling. 
Then you said, ``The more you try to help, the more you 
hinder.''
    Mr. Dorr, it seems to me, as under secretary for rural 
development you are there to help people. If you have an 
attitude that the more you help, the more you hinder them, I 
don't understand how you can carry that out. I assume, and I 
can only read this as plain English, you talk about Government 
maintaining a constituency dependent on Government revenue, the 
more you try to help, the more you hinder. The results are 
everywhere. Again, I am reading from the record, on Page 80 of 
that hearing in 2002.
    Well, Mr. Dorr, the way I look at it, it seems that the 
Dorr family has benefited a lot from Government help.
    ``Did not the Dorr farms receive farmers home loans back 
during the farm crisis of the 1980's?''
    ``Mr. Dorr: I don't believe we received a farmers home 
loan. I believe I received a guaranteed loan the 1980's, that's 
correct.''
    ``The Chairman. That is a guaranteed loan?''
    ``Mr. Dorr. That's correct. I appreciated it.''
    ``The Chairman. You went to college. Did you get student 
loans?''
    ``Mr. Dorr. Yes, I did.''
    ``The Chairman. Those were Government-backed?''
    ``Mr. Dorr. Yes.''
    ``The Chairman. You have received farm payments?''
    ``Mr. Dorr. Yes.''
    ``The Chairman. From the Federal Government?''
    ``Obviously.''
    ``Has all this hindered you?''
    Well, you went on to say no, then you went on to make a 
comment about mega-farms.
    I guess it is that attitude, and I am trying to find out--
that is why I asked if you had looked at the record. In my 
opening statement, I asked if you had looked at the record and 
was there anything you wanted to complete or correct. I guess 
what I was looking for, perhaps, was, that had you been, now, 
the length of time that you have been down at the Department 
and you have been working in these capacities, that maybe the 
more you help, the more you hinder is not quite the correct way 
to look at many of these things. I don't know. I don't know how 
to interpret it other than what was said there, other than you 
just wrote it in a moment of anger. I can understand people 
sometimes flying off the handle and stuff like that. If that is 
what it was, hey, I can accept that. If that was just I flew 
off the handle and I got ticked off 1 day and I wrote my 
Senator. I can understand that.
    Are you saying that this really does--does this reflect 
your philosophy or does it not reflect your philosophy now?
    Mr. Dorr. Senator, I just explained to you what my 
philosophy was. I said earlier in the day what my philosophy is 
and what my views are of the things and the opportunities that 
we have at rural development to do. I believe that my 
background and characterization, my passion for assisting the 
minority communities that we talked about earlier, and all the 
others involved in rural development are pretty clearly part of 
the record. To suggest that I believe that the more we help, 
the more we hinder--that is clearly not true.
    Senator Harkin. Thank you. I appreciate that.
    Last--I see Senator Grassley has come back--I do want to, 
again--I just want to comment on the bandwidth issue. Now, you 
have been down at the Department for the last 3 years or so in 
a key position. You served for over 1 year as under secretary 
for rural development, during which time the 2002 Farm bill was 
in effect. There is a provision in the Farm bill that provides 
for low-interest loans to private entities for getting 
broadband to rural communities, with a preference for those 
communities with less than 2,500, population.
    Now, Senator Grassley was with me last year when we talked 
about that to President Bush in Des Moines. You can correct me 
if I am wrong, you said you had constituents, I know I have had 
constituents in Iowa, private entities who have tried to get 
these loans to get broadband out to small communities, and they 
have been stymied at every turn. Now, if I am off, I am off a 
little bit on this in terms of $1.6 billion, but there is still 
about $1.6 billion sitting there that could go out. When you 
responded to Senator Grassley earlier, you said, Well, if I get 
there then we will get outside experts to look at it.
    That money has been there for 3 years. You were under 
secretary for a year. You have been in a key advisory position 
down there for 3 years. Yet, nothing has happened. You 
mentioned bandwidth in your opening statement. Well, Mr. Dorr, 
I don't see anything happening down there. With a provision 
that was put in the Farm bill, it is mandatory spending. The 
money is there. I have been extremely frustrated, as I know 
other Senators have been, that this money is not getting out to 
entities. Some of these entities are already providing services 
to communities. It is not that they are some fly by-night 
outfit. In order to get the bottom line to come out, they need 
these low-interest loans, and they can get out to small 
communities all over our State and, I am certain, Georgia and 
other places, too.
    I am--I just want for the record to say that I would like 
to have seen a little bit more action on that up to now than we 
have seen in getting that out. It is nice to hear that you 
support that, that you are interested in getting broadband out. 
That is wonderful. Words just don't suffice. We have to have 
some action in that regard.
    If you have any comment on that. It is not really a 
question; it is more of a statement on my part.
    Mr. Dorr. I agree the program is a good program. We need to 
implement it as aggressively as possible. If I am confirmed, I 
will clearly work very hard on that.
    Senator Harkin. I thank you. I thank you, Mr. Dorr, and, 
Mr. Chairman, again I want to thank you for your indulgence as 
chairman for letting me pursue this questioning and making the 
record. I just can't thank you enough for your indulgence.
    The Chairman. Yes, sir.
    [The statement and Biographical information of Mr. Dorr can 
be found in the appendix on page 282.]
    Senator Harkin. Oh--I thought I already asked that. I have 
a letter from Secretary Veneman dated April 12, 2002, that is 
referred to in the Harl letter. I have an order from the court 
dated September 6, 2002, regarding the audio tape. Then 
documents produced pursuant to a court order and the materials 
were disclosed after in camera inspection and redaction of 
purely private items, regarding the audio tape. The minutes of 
the Cherokee County FSA County Committee meeting of June 20, 
1996; August 29, 1996; November 14, 1996; December 5, 1996; and 
December 19, 1996. Last, the Annual Survey of County Farmland 
Values prepared by Cherokee County FSA dated February 1, 1996.
    The Chairman. Without objection.
    [The letter dated February 1, 1996 of the Annual Survey of 
County Farmland Values prepared by Cherokee County FSA can be 
found in the appendix on page 245.]
    The Chairman. Let me say, first of all, that this issue of 
farm payments has certainly come up a lot in discussion today. 
It also came up quite often in the discussion in the hearing on 
March 6, 2002. [ I have statistics here from the Farm Service 
Agency that show that in fiscal year 2001 alone there were 
thousands of repayments to USDA.] This includes a number of 
programs and also includes voluntary collections. I am not in 
any way introducing this to condone or agree with what Mr. Dorr 
did or should have done or didn't do relative to his situation, 
I do know, as all of us do, that farm programs can be very 
complicated, just like the tax code, and that individuals can 
make mistakes. The Government even makes mistakes. I would ask 
unanimous consent that these FSA statistics be included in the 
record. They will be, without objection.
    [The information referred to in the FSA statistics can be 
found in the appendix on page 194.]
    The Chairman. Also, after Mr. Dorr's first hearing before 
this committee, on March 6, 2002, the USDA Inspector General 
received a hotline complaint regarding the statements made on 
the audio tape that was played here today. That prompted a full 
investigation, and Mr. Dorr was subsequently cleared of any 
wrongdoing. According to a report dated May 28, 2002, from 
Joyce Fleischman, Acting Inspector General for USDA, the 
conversations on that tape were the subject of a thorough 
investigation by OIG and the Iowa State FSA Office. I would ask 
that a copy of that report be included in the record.
    Based upon the information developed during the OIG 
investigation, the U.S. Attorney's Office for the Northern 
District of Iowa declined any criminal or civil prosecution of 
Mr. Dorr, and the OIG considers this case to be closed. Quoting 
from that OIG report, let me read this statement: ``We feel 
that we have investigated the matters referred to OIG 
concerning Mr. Dorr fully and consider the case to be closed. 
To date there is no new evidence to warrant reexamination nor 
the need to open a new investigation.''
    We have requested a copy of that OIG report. I would ask 
unanimous consent that when it is received, that it be inserted 
into the record.
    [The information referred in the OIG report can be found in 
the appendix on page 303.]
    The Chairman. Is there anything further?
    If not, this hearing stands adjourned.
    [Whereupon, at 1:04 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             April 27, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0839.001

[GRAPHIC] [TIFF OMITTED] T0839.002

[GRAPHIC] [TIFF OMITTED] T0839.003

[GRAPHIC] [TIFF OMITTED] T0839.004

[GRAPHIC] [TIFF OMITTED] T0839.005

[GRAPHIC] [TIFF OMITTED] T0839.006

[GRAPHIC] [TIFF OMITTED] T0839.007

[GRAPHIC] [TIFF OMITTED] T0839.008

[GRAPHIC] [TIFF OMITTED] T0839.009

[GRAPHIC] [TIFF OMITTED] T0839.010

[GRAPHIC] [TIFF OMITTED] T0839.011

[GRAPHIC] [TIFF OMITTED] T0839.012

[GRAPHIC] [TIFF OMITTED] T0839.013

[GRAPHIC] [TIFF OMITTED] T0839.014

[GRAPHIC] [TIFF OMITTED] T0839.015

[GRAPHIC] [TIFF OMITTED] T0839.016

[GRAPHIC] [TIFF OMITTED] T0839.017

[GRAPHIC] [TIFF OMITTED] T0839.018

[GRAPHIC] [TIFF OMITTED] T0839.019

[GRAPHIC] [TIFF OMITTED] T0839.020

[GRAPHIC] [TIFF OMITTED] T0839.021

[GRAPHIC] [TIFF OMITTED] T0839.022

[GRAPHIC] [TIFF OMITTED] T0839.023

[GRAPHIC] [TIFF OMITTED] T0839.024

[GRAPHIC] [TIFF OMITTED] T0839.025

[GRAPHIC] [TIFF OMITTED] T0839.026

[GRAPHIC] [TIFF OMITTED] T0839.027

[GRAPHIC] [TIFF OMITTED] T0839.028

[GRAPHIC] [TIFF OMITTED] T0839.029

[GRAPHIC] [TIFF OMITTED] T0839.030

[GRAPHIC] [TIFF OMITTED] T0839.031

[GRAPHIC] [TIFF OMITTED] T0839.032

[GRAPHIC] [TIFF OMITTED] T0839.033

[GRAPHIC] [TIFF OMITTED] T0839.034

[GRAPHIC] [TIFF OMITTED] T0839.035

[GRAPHIC] [TIFF OMITTED] T0839.036

[GRAPHIC] [TIFF OMITTED] T0839.037

[GRAPHIC] [TIFF OMITTED] T0839.038

[GRAPHIC] [TIFF OMITTED] T0839.039

[GRAPHIC] [TIFF OMITTED] T0839.040

[GRAPHIC] [TIFF OMITTED] T0839.041

[GRAPHIC] [TIFF OMITTED] T0839.042

[GRAPHIC] [TIFF OMITTED] T0839.043

[GRAPHIC] [TIFF OMITTED] T0839.044

[GRAPHIC] [TIFF OMITTED] T0839.045

[GRAPHIC] [TIFF OMITTED] T0839.046

[GRAPHIC] [TIFF OMITTED] T0839.047

[GRAPHIC] [TIFF OMITTED] T0839.048

[GRAPHIC] [TIFF OMITTED] T0839.049

[GRAPHIC] [TIFF OMITTED] T0839.050

[GRAPHIC] [TIFF OMITTED] T0839.051

[GRAPHIC] [TIFF OMITTED] T0839.052

[GRAPHIC] [TIFF OMITTED] T0839.053

[GRAPHIC] [TIFF OMITTED] T0839.054

[GRAPHIC] [TIFF OMITTED] T0839.055

[GRAPHIC] [TIFF OMITTED] T0839.056

[GRAPHIC] [TIFF OMITTED] T0839.057

[GRAPHIC] [TIFF OMITTED] T0839.058

[GRAPHIC] [TIFF OMITTED] T0839.059

[GRAPHIC] [TIFF OMITTED] T0839.060

[GRAPHIC] [TIFF OMITTED] T0839.061

[GRAPHIC] [TIFF OMITTED] T0839.062

[GRAPHIC] [TIFF OMITTED] T0839.063

[GRAPHIC] [TIFF OMITTED] T0839.064

[GRAPHIC] [TIFF OMITTED] T0839.065

[GRAPHIC] [TIFF OMITTED] T0839.066

[GRAPHIC] [TIFF OMITTED] T0839.067

[GRAPHIC] [TIFF OMITTED] T0839.068

[GRAPHIC] [TIFF OMITTED] T0839.069

[GRAPHIC] [TIFF OMITTED] T0839.070

[GRAPHIC] [TIFF OMITTED] T0839.071

[GRAPHIC] [TIFF OMITTED] T0839.072

[GRAPHIC] [TIFF OMITTED] T0839.073

[GRAPHIC] [TIFF OMITTED] T0839.074

[GRAPHIC] [TIFF OMITTED] T0839.075

[GRAPHIC] [TIFF OMITTED] T0839.076

[GRAPHIC] [TIFF OMITTED] T0839.077

[GRAPHIC] [TIFF OMITTED] T0839.078

[GRAPHIC] [TIFF OMITTED] T0839.079

[GRAPHIC] [TIFF OMITTED] T0839.080

[GRAPHIC] [TIFF OMITTED] T0839.081

[GRAPHIC] [TIFF OMITTED] T0839.082

[GRAPHIC] [TIFF OMITTED] T0839.083

[GRAPHIC] [TIFF OMITTED] T0839.084

[GRAPHIC] [TIFF OMITTED] T0839.085

[GRAPHIC] [TIFF OMITTED] T0839.086

[GRAPHIC] [TIFF OMITTED] T0839.087

[GRAPHIC] [TIFF OMITTED] T0839.088

[GRAPHIC] [TIFF OMITTED] T0839.089

[GRAPHIC] [TIFF OMITTED] T0839.090

[GRAPHIC] [TIFF OMITTED] T0839.091

[GRAPHIC] [TIFF OMITTED] T0839.092

[GRAPHIC] [TIFF OMITTED] T0839.093

[GRAPHIC] [TIFF OMITTED] T0839.094

[GRAPHIC] [TIFF OMITTED] T0839.095

[GRAPHIC] [TIFF OMITTED] T0839.096

[GRAPHIC] [TIFF OMITTED] T0839.097

[GRAPHIC] [TIFF OMITTED] T0839.098

[GRAPHIC] [TIFF OMITTED] T0839.099

[GRAPHIC] [TIFF OMITTED] T0839.100

[GRAPHIC] [TIFF OMITTED] T0839.101

[GRAPHIC] [TIFF OMITTED] T0839.102

[GRAPHIC] [TIFF OMITTED] T0839.103

[GRAPHIC] [TIFF OMITTED] T0839.104

[GRAPHIC] [TIFF OMITTED] T0839.105

[GRAPHIC] [TIFF OMITTED] T0839.106

[GRAPHIC] [TIFF OMITTED] T0839.107

[GRAPHIC] [TIFF OMITTED] T0839.108

[GRAPHIC] [TIFF OMITTED] T0839.109

[GRAPHIC] [TIFF OMITTED] T0839.110

[GRAPHIC] [TIFF OMITTED] T0839.111

[GRAPHIC] [TIFF OMITTED] T0839.112

[GRAPHIC] [TIFF OMITTED] T0839.113

[GRAPHIC] [TIFF OMITTED] T0839.114

[GRAPHIC] [TIFF OMITTED] T0839.115

[GRAPHIC] [TIFF OMITTED] T0839.116

[GRAPHIC] [TIFF OMITTED] T0839.117

[GRAPHIC] [TIFF OMITTED] T0839.118

[GRAPHIC] [TIFF OMITTED] T0839.119

[GRAPHIC] [TIFF OMITTED] T0839.120

[GRAPHIC] [TIFF OMITTED] T0839.121

[GRAPHIC] [TIFF OMITTED] T0839.122

[GRAPHIC] [TIFF OMITTED] T0839.123

[GRAPHIC] [TIFF OMITTED] T0839.124

[GRAPHIC] [TIFF OMITTED] T0839.125

[GRAPHIC] [TIFF OMITTED] T0839.126

[GRAPHIC] [TIFF OMITTED] T0839.127

[GRAPHIC] [TIFF OMITTED] T0839.128

[GRAPHIC] [TIFF OMITTED] T0839.129

[GRAPHIC] [TIFF OMITTED] T0839.130

[GRAPHIC] [TIFF OMITTED] T0839.131

[GRAPHIC] [TIFF OMITTED] T0839.132

[GRAPHIC] [TIFF OMITTED] T0839.133

[GRAPHIC] [TIFF OMITTED] T0839.134

[GRAPHIC] [TIFF OMITTED] T0839.135

[GRAPHIC] [TIFF OMITTED] T0839.136

[GRAPHIC] [TIFF OMITTED] T0839.137

[GRAPHIC] [TIFF OMITTED] T0839.138

[GRAPHIC] [TIFF OMITTED] T0839.139

[GRAPHIC] [TIFF OMITTED] T0839.140

[GRAPHIC] [TIFF OMITTED] T0839.141

[GRAPHIC] [TIFF OMITTED] T0839.142

[GRAPHIC] [TIFF OMITTED] T0839.143

[GRAPHIC] [TIFF OMITTED] T0839.144

[GRAPHIC] [TIFF OMITTED] T0839.145

[GRAPHIC] [TIFF OMITTED] T0839.146

[GRAPHIC] [TIFF OMITTED] T0839.147

[GRAPHIC] [TIFF OMITTED] T0839.148

[GRAPHIC] [TIFF OMITTED] T0839.149

[GRAPHIC] [TIFF OMITTED] T0839.150

[GRAPHIC] [TIFF OMITTED] T0839.151

[GRAPHIC] [TIFF OMITTED] T0839.152

[GRAPHIC] [TIFF OMITTED] T0839.153

[GRAPHIC] [TIFF OMITTED] T0839.154

[GRAPHIC] [TIFF OMITTED] T0839.155

[GRAPHIC] [TIFF OMITTED] T0839.156

[GRAPHIC] [TIFF OMITTED] T0839.157

[GRAPHIC] [TIFF OMITTED] T0839.158

[GRAPHIC] [TIFF OMITTED] T0839.159

[GRAPHIC] [TIFF OMITTED] T0839.161

[GRAPHIC] [TIFF OMITTED] T0839.162

[GRAPHIC] [TIFF OMITTED] T0839.163

[GRAPHIC] [TIFF OMITTED] T0839.164

[GRAPHIC] [TIFF OMITTED] T0839.165

[GRAPHIC] [TIFF OMITTED] T0839.169

[GRAPHIC] [TIFF OMITTED] T0839.170

[GRAPHIC] [TIFF OMITTED] T0839.171

[GRAPHIC] [TIFF OMITTED] T0839.175

[GRAPHIC] [TIFF OMITTED] T0839.182

[GRAPHIC] [TIFF OMITTED] T0839.183

[GRAPHIC] [TIFF OMITTED] T0839.184

[GRAPHIC] [TIFF OMITTED] T0839.185

[GRAPHIC] [TIFF OMITTED] T0839.186

[GRAPHIC] [TIFF OMITTED] T0839.187

[GRAPHIC] [TIFF OMITTED] T0839.188

[GRAPHIC] [TIFF OMITTED] T0839.189

[GRAPHIC] [TIFF OMITTED] T0839.190

[GRAPHIC] [TIFF OMITTED] T0839.191

[GRAPHIC] [TIFF OMITTED] T0839.192

[GRAPHIC] [TIFF OMITTED] T0839.193

[GRAPHIC] [TIFF OMITTED] T0839.194

[GRAPHIC] [TIFF OMITTED] T0839.195

[GRAPHIC] [TIFF OMITTED] T0839.196

[GRAPHIC] [TIFF OMITTED] T0839.197

[GRAPHIC] [TIFF OMITTED] T0839.198

[GRAPHIC] [TIFF OMITTED] T0839.199

[GRAPHIC] [TIFF OMITTED] T0839.200

[GRAPHIC] [TIFF OMITTED] T0839.201

[GRAPHIC] [TIFF OMITTED] T0839.202

[GRAPHIC] [TIFF OMITTED] T0839.203

[GRAPHIC] [TIFF OMITTED] T0839.204

[GRAPHIC] [TIFF OMITTED] T0839.205

[GRAPHIC] [TIFF OMITTED] T0839.206

[GRAPHIC] [TIFF OMITTED] T0839.207

[GRAPHIC] [TIFF OMITTED] T0839.208

[GRAPHIC] [TIFF OMITTED] T0839.209

[GRAPHIC] [TIFF OMITTED] T0839.210

[GRAPHIC] [TIFF OMITTED] T0839.211

[GRAPHIC] [TIFF OMITTED] T0839.212

[GRAPHIC] [TIFF OMITTED] T0839.213

[GRAPHIC] [TIFF OMITTED] T0839.214

[GRAPHIC] [TIFF OMITTED] T0839.215

[GRAPHIC] [TIFF OMITTED] T0839.216

[GRAPHIC] [TIFF OMITTED] T0839.217

[GRAPHIC] [TIFF OMITTED] T0839.218

[GRAPHIC] [TIFF OMITTED] T0839.219

[GRAPHIC] [TIFF OMITTED] T0839.220

[GRAPHIC] [TIFF OMITTED] T0839.221

[GRAPHIC] [TIFF OMITTED] T0839.222

[GRAPHIC] [TIFF OMITTED] T0839.223

[GRAPHIC] [TIFF OMITTED] T0839.224

[GRAPHIC] [TIFF OMITTED] T0839.225

[GRAPHIC] [TIFF OMITTED] T0839.226

[GRAPHIC] [TIFF OMITTED] T0839.227

[GRAPHIC] [TIFF OMITTED] T0839.228

[GRAPHIC] [TIFF OMITTED] T0839.229

[GRAPHIC] [TIFF OMITTED] T0839.230

[GRAPHIC] [TIFF OMITTED] T0839.231

[GRAPHIC] [TIFF OMITTED] T0839.232

[GRAPHIC] [TIFF OMITTED] T0839.233

[GRAPHIC] [TIFF OMITTED] T0839.234

[GRAPHIC] [TIFF OMITTED] T0839.235

[GRAPHIC] [TIFF OMITTED] T0839.236

[GRAPHIC] [TIFF OMITTED] T0839.237

[GRAPHIC] [TIFF OMITTED] T0839.238

[GRAPHIC] [TIFF OMITTED] T0839.239

[GRAPHIC] [TIFF OMITTED] T0839.240

[GRAPHIC] [TIFF OMITTED] T0839.241

[GRAPHIC] [TIFF OMITTED] T0839.242

[GRAPHIC] [TIFF OMITTED] T0839.250

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 27, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0839.288

[GRAPHIC] [TIFF OMITTED] T0839.289

[GRAPHIC] [TIFF OMITTED] T0839.290

[GRAPHIC] [TIFF OMITTED] T0839.291

[GRAPHIC] [TIFF OMITTED] T0839.292

[GRAPHIC] [TIFF OMITTED] T0839.293

[GRAPHIC] [TIFF OMITTED] T0839.294

[GRAPHIC] [TIFF OMITTED] T0839.295

[GRAPHIC] [TIFF OMITTED] T0839.296

[GRAPHIC] [TIFF OMITTED] T0839.297

[GRAPHIC] [TIFF OMITTED] T0839.298

[GRAPHIC] [TIFF OMITTED] T0839.299

[GRAPHIC] [TIFF OMITTED] T0839.300

[GRAPHIC] [TIFF OMITTED] T0839.301

[GRAPHIC] [TIFF OMITTED] T0839.302

[GRAPHIC] [TIFF OMITTED] T0839.303

[GRAPHIC] [TIFF OMITTED] T0839.304

[GRAPHIC] [TIFF OMITTED] T0839.305

[GRAPHIC] [TIFF OMITTED] T0839.306

[GRAPHIC] [TIFF OMITTED] T0839.307

[GRAPHIC] [TIFF OMITTED] T0839.308

[GRAPHIC] [TIFF OMITTED] T0839.309

[GRAPHIC] [TIFF OMITTED] T0839.310

[GRAPHIC] [TIFF OMITTED] T0839.311

[GRAPHIC] [TIFF OMITTED] T0839.312

[GRAPHIC] [TIFF OMITTED] T0839.313

[GRAPHIC] [TIFF OMITTED] T0839.314

[GRAPHIC] [TIFF OMITTED] T0839.315

[GRAPHIC] [TIFF OMITTED] T0839.316

[GRAPHIC] [TIFF OMITTED] T0839.317

[GRAPHIC] [TIFF OMITTED] T0839.318

[GRAPHIC] [TIFF OMITTED] T0839.319

[GRAPHIC] [TIFF OMITTED] T0839.325

[GRAPHIC] [TIFF OMITTED] T0839.326

[GRAPHIC] [TIFF OMITTED] T0839.327

[GRAPHIC] [TIFF OMITTED] T0839.328

[GRAPHIC] [TIFF OMITTED] T0839.329

[GRAPHIC] [TIFF OMITTED] T0839.330

[GRAPHIC] [TIFF OMITTED] T0839.331

[GRAPHIC] [TIFF OMITTED] T0839.332

[GRAPHIC] [TIFF OMITTED] T0839.333

[GRAPHIC] [TIFF OMITTED] T0839.334

[GRAPHIC] [TIFF OMITTED] T0839.335

[GRAPHIC] [TIFF OMITTED] T0839.336

[GRAPHIC] [TIFF OMITTED] T0839.337

[GRAPHIC] [TIFF OMITTED] T0839.338

[GRAPHIC] [TIFF OMITTED] T0839.339

[GRAPHIC] [TIFF OMITTED] T0839.340

[GRAPHIC] [TIFF OMITTED] T0839.341

[GRAPHIC] [TIFF OMITTED] T0839.342

[GRAPHIC] [TIFF OMITTED] T0839.343

[GRAPHIC] [TIFF OMITTED] T0839.344

[GRAPHIC] [TIFF OMITTED] T0839.345

[GRAPHIC] [TIFF OMITTED] T0839.346

[GRAPHIC] [TIFF OMITTED] T0839.347

[GRAPHIC] [TIFF OMITTED] T0839.348

[GRAPHIC] [TIFF OMITTED] T0839.349

[GRAPHIC] [TIFF OMITTED] T0839.350

[GRAPHIC] [TIFF OMITTED] T0839.351

[GRAPHIC] [TIFF OMITTED] T0839.352

[GRAPHIC] [TIFF OMITTED] T0839.353

[GRAPHIC] [TIFF OMITTED] T0839.354

[GRAPHIC] [TIFF OMITTED] T0839.355

[GRAPHIC] [TIFF OMITTED] T0839.356

[GRAPHIC] [TIFF OMITTED] T0839.357

[GRAPHIC] [TIFF OMITTED] T0839.358

[GRAPHIC] [TIFF OMITTED] T0839.359

[GRAPHIC] [TIFF OMITTED] T0839.360

[GRAPHIC] [TIFF OMITTED] T0839.361

[GRAPHIC] [TIFF OMITTED] T0839.362

[GRAPHIC] [TIFF OMITTED] T0839.363

[GRAPHIC] [TIFF OMITTED] T0839.364

[GRAPHIC] [TIFF OMITTED] T0839.365

[GRAPHIC] [TIFF OMITTED] T0839.366

[GRAPHIC] [TIFF OMITTED] T0839.367

[GRAPHIC] [TIFF OMITTED] T0839.368

[GRAPHIC] [TIFF OMITTED] T0839.369

[GRAPHIC] [TIFF OMITTED] T0839.370

[GRAPHIC] [TIFF OMITTED] T0839.371

[GRAPHIC] [TIFF OMITTED] T0839.372

[GRAPHIC] [TIFF OMITTED] T0839.373

[GRAPHIC] [TIFF OMITTED] T0839.374

[GRAPHIC] [TIFF OMITTED] T0839.375

[GRAPHIC] [TIFF OMITTED] T0839.376

[GRAPHIC] [TIFF OMITTED] T0839.377

[GRAPHIC] [TIFF OMITTED] T0839.378

[GRAPHIC] [TIFF OMITTED] T0839.379

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             April 27, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0839.380

[GRAPHIC] [TIFF OMITTED] T0839.381

[GRAPHIC] [TIFF OMITTED] T0839.382

[GRAPHIC] [TIFF OMITTED] T0839.383

[GRAPHIC] [TIFF OMITTED] T0839.384

[GRAPHIC] [TIFF OMITTED] T0839.385

[GRAPHIC] [TIFF OMITTED] T0839.386

[GRAPHIC] [TIFF OMITTED] T0839.387

                                 <all>

</pre></body></html>
